<html>
<title> - TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE SAMUEL B. KENT OF THE SOUTHERN DISTRICT OF TEXAS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE SAMUEL 
               B. KENT OF THE SOUTHERN DISTRICT OF TEXAS

=======================================================================

                                HEARING

                               BEFORE THE

                   TASK FORCE ON JUDICIAL IMPEACHMENT

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2009

                               __________

                           Serial No. 111-11

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                   U.S. GOVERNMENT PRINTING OFFICE
50-067 PDF                  WASHINGTON : 2009
----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
ROBERT WEXLER, Florida               STEVE KING, Iowa
STEVE COHEN, Tennessee               TRENT FRANKS, Arizona
HENRY C. ``HANK'' JOHNSON, Jr.,      LOUIE GOHMERT, Texas
  Georgia                            JIM JORDAN, Ohio
PEDRO PIERLUISI, Puerto Rico         TED POE, Texas
MIKE QUIGLEY, Illinois               JASON CHAFFETZ, Utah
LUIS V. GUTIERREZ, Illinois          TOM ROONEY, Florida
BRAD SHERMAN, California             GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DEBBIE WASSERMAN SCHULTZ, Florida
DANIEL MAFFEI, New York

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

                   Task Force on Judicial Impeachment

                  ADAM B. SCHIFF, California, Chairman

SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
WILLIAM D. DELAHUNT, Massachusetts   F. JAMES SENSENBRENNER, Jr., 
STEVE COHEN, Tennessee               Wisconsin
HENRY C. ``HANK'' JOHNSON, Jr.,      DANIEL E. LUNGREN, California
  Georgia                            J. RANDY FORBES, Virginia
PEDRO PIERLUISI, Puerto Rico         LOUIE GOHMERT, Texas
CHARLES A. GONZALEZ, Texas


                            C O N T E N T S

                              ----------                              

                              JUNE 3, 2009

                                                                   Page

                           OPENING STATEMENTS

The Honorable Adam B. Schiff, a Representative in Congress from 
  the State of California, and Chairman, Task Force on Judicial 
  Impeachment....................................................     1
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Task Force on 
  Judicial Impeachment...........................................     6
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, Ranking Member, Committee on the Judiciary, and 
  ex officio Member, Task Force on Judicial Impeachment..........     8
The Honorable Steve Cohen, a Representative in Congress from the 
  State of Tennessee, and Member, Task Force on Judicial 
  Impeachment....................................................     9
The Honorable F. James Sensenbrenner, Jr., a Representative in 
  Congress from the State of Wisconsin, and Member, Task Force on 
  Judicial Impeachment...........................................     9
The Honorable Henry C. ``Hank'' Johnson, Jr., a Representative in 
  Congress from the State of Georgia, and Member, Task Force on 
  Judicial Impeachment...........................................    10
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Member, Task Force on Judicial 
  Impeachment....................................................    10

                               WITNESSES

Mr. Alan Baron, Special Impeachment Counsel, House Committee on 
  the Judiciary
  Oral Testimony.................................................    11
Ms. Cathy McBroom, Case Manager, United States District Court, 
  Southern District of Texas
  Oral Testimony.................................................   153
  Prepared Statement.............................................   160
Ms. Donna Wilkerson, Legal Secretary, United States District 
  Court, Southern District of Texas
  Oral Testimony.................................................   168
  Prepared Statement.............................................   173
Mr. Arthur D. Hellman, Professor, University of Pittsburgh School 
  of Law, Pittsburgh, PA
  Oral Testimony.................................................   176
  Prepared Statement.............................................   179

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of Samuel B. Kent, Judge, United States 
  District Court, Southern District of Texas.....................     3
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     8
Material submitted by Alan Baron, Special Impeachment Counsel, 
  House Committee on the Judiciary
    Original Indictment..........................................    15
    Superseding Indictment.......................................    19
    Plea Agreement...............................................    26
    Factual Basis for the Plea...................................    38
    Transcript of Plea Hearing...................................    41
    Transcript of Sentencing.....................................    61
    Judgment of Conviction document..............................   139
    Letter from Edith H. Jones, Chief Judge, United States Court 
      of Appeals for the Fifth Circuit, to Judge Samuel B. Kent..   147
    Letter from Samuel B. Kent, United States District Judge, 
      Southern District of Texas, to Barack Obama, President of 
      the United States..........................................   151


TO CONSIDER POSSIBLE IMPEACHMENT OF UNITED STATES DISTRICT JUDGE SAMUEL 
               B. KENT OF THE SOUTHERN DISTRICT OF TEXAS

                              ----------                              


                        WEDNESDAY, JUNE 3, 2009

                  House of Representatives,
                 Task Force on Judicial Impeachment
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Task Force met, pursuant to notice, at 12:07 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Adam B. 
Schiff (Chairman of the Task Force) presiding.
    Present: Representatives Schiff, Conyers, Jackson Lee, 
Delahunt, Cohen, Johnson, Pierluisi, Gonzalez, Smith, 
Sensenbrenner, Goodlatte, Lungren and Gohmert.
    Staff Present: Alan Baron, Counsel; Mark Dubester, Counsel; 
Harold Damelin, Counsel; Kirsten Konar, Counsel; and Jessica 
Klein, Staff Assistant.
    Mr. Schiff. This House Judiciary Task Force on Judicial 
Impeachment will now come to order. Without objection, the 
Chair will be authorized to declare a recess of the hearing, 
I'll now recognize myself for an opening statement.
    This hearing has been called to commence the inquiry into 
whether United States District Court Judge Samuel Kent should 
be impeached by the United States House of Representatives. 
Article I, section 2 of the Constitution vests the sole power 
of impeachment in the House of Representatives. The task before 
us is not one that we welcome; however, it is an important 
responsibility that has been entrusted to us by the Founders.
    In August 2008, a Federal grand jury returned a three-count 
indictment against Judge Samuel Kent after a Department of 
Justice criminal investigation. A superseding indictment filed 
in January 2009 added three additional counts, for a total of 
six counts charged. According to the indictment, Judge Kent is 
alleged to have committed acts constituting abuse of sexual 
contact and attempted aggravated sexual abuse in 2003 and 2007 
against Ms. Cathy McBroom, a deputy clerk occasionally assigned 
to Judge Kent's courtroom. Judge Kent is alleged of committing 
acts constituting aggravated sexual abuse and abuse of sexual 
contact from 2004 to at least 2005 with Ms. Donna Wilkerson, 
Judge Kent's secretary. Aggravated sexual abuse is a crime 
punishable under 18 U.S.C. Section 2241 by up to life in 
prison. Finally, the indictment charges Judge Kent with one 
count of obstruction of justice for corruptly obstructing, 
influencing and impeding an official proceeding by making false 
statements to the Special Investigative Committee of the U.S. 
Court of Appeals for the Fifth Circuit regarding his unwanted 
sexual contact with Ms. Wilkerson.
    On February 23, 2009, the day his criminal trial was set to 
begin, Judge Kent pled guilty to obstruction of justice. As 
part of his plea, he admitted to engaging in nonconsensual 
sexual contact with Ms. McBroom without her permission in 2003 
and 2007. Judge Kent also admitted to engaging in nonconsensual 
sexual content with Ms. Wilkerson without her permission from 
2004 through at least 2005. Finally, he admitted that he 
falsely testified before the Special Investigative Committee of 
the Fifth Circuit regarding his unwanted sexual contact with 
Ms. Wilkerson. In particular, Judge Kent admitted making false 
statements with regard to his repeated nonconsensual sexual 
contact with Ms. Wilkerson.
    On May 11, 2009, Judge Kent was sentenced to a term of 33 
months in prison and ordered to pay fines and restitution to 
Ms. McBroom and Ms. Wilkerson. Judge Kent is ordered to 
surrender himself on June 15th for incarceration. The day after 
his sentencing, the House of Representatives passed House 
Resolution 424 by unanimous consent authorizing and directing 
this Task Force to inquire whether Judge Kent should be 
impeached. Accordingly, we are conducting this evidentiary 
hearing today.
    Article 3, Section 1 provides that the judges both of the 
Supreme and inferior courts shall hold their offices during 
good behavior and shall at stated times receive for their 
services a compensation which shall not be diminished during 
their continuance in office. Article II, Section 4 of the 
Constitution provides that all civil officers of the United 
States shall be removed from office on impeachment for and 
conviction of treason, bribery or other high crimes and 
misdemeanors.
    As we will hear today, historical precedent suggests that 
there are two categories of conduct that may justify 
impeachment: serious abuses of power, and conduct that 
demonstrates that an official is unworthy to fill the office 
that he holds. Therefore, the Task Force will examine whether 
the conduct that Judge Kent has admitted to as part of his 
guilty plea proceeding, namely making false statements in a 
judicial proceeding, as well as other potential obstruction of 
justice based on false statements to the FBI and Justice 
Department, render him unfit to hold judicial office.
    The Task Force will also examine whether the evidence of 
sexual misconduct constitutes abuse of judicial power and 
provides a further basis for Judge Kent's unfitness to retain 
his office.
    The purpose of this hearing is to develop a record upon 
which the Task Force can recommend whether to adopt articles of 
impeachment. These proceedings do not constitute a trial, as 
the constitutional power to try impeachment resides in the 
Senate. This inquiry will focus on whether Judge Kent's conduct 
provides a sufficient basis for impeachment.
    In order to develop the record, the Task Force has called 
witnesses and will admit documents that will help us determine 
whether the constitutional standard for impeachment has been 
met. The Task Force has invited Judge Kent to testify before us 
today. Judge Kent has declined this offer. The Task Force has 
received correspondence from Judge Kent that he has asked to be 
considered as a written statement for today's hearing. It will 
be so considered and has been made available to all Members. 
Without objection, I ask that it also be placed in the record.
    [The prepared statement of Judge Kent follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Schiff. The Task Force has also invited Judge Kent's 
counsel to participate in the hearing and present arguments on 
behalf of his client, as well as to provide the opportunity to 
question any of the witnesses before us. Judge Kent's counsel 
has also declined to appear or participate in the hearing.
    We have also received a letter from Judge Kent to the White 
House dated yesterday, June 2nd, stating his intention to 
resign June 1, 2010, a year from now. Neither his surrender to 
custody in 12 days nor his stated intention to resign a year 
from now affect his current status as a Federal judge or our 
constitutional obligation to determine whether impeachment is 
warranted. This Task Force will proceed in a fair, open, 
deliberate and thorough manner and our work has and will 
continue to be done on a bipartisan basis.
    I want to thank the witnesses, particularly Ms. McBroom and 
Ms. Wilkerson, for their willingness to testify at the request 
of the Task Force. We recognize the great sensitivity of the 
subject matter.
    After the Task Force Members have an opportunity to make 
opening remarks, I will ask Alan Baron, counsel to the Task 
Force, to introduce the documentary record and provide the 
context for today's testimony. We'll then move to our panel of 
witnesses. After the witnesses make their initial statements, 
Members will have the opportunity to ask questions, observing 
the 5-minute rule.
    At the conclusion of the hearing, we'll be scheduling a 
follow-up meeting of the Task Force to discuss whether to 
recommend articles of impeachment to the full Committee for its 
consideration.
    I now recognize my colleague Mr. Goodlatte, the 
distinguished Ranking Member of the Task Force, for his opening 
remarks.
    Mr. Gohmert. Mr. Chairman, can I make a parliamentary 
inquiry? You had said, without objection, the letter from Judge 
Kent would be made part of the record, correct?
    Mr. Schiff. Yes.
    Mr. Gohmert. That letter, as I understand it, is addressed 
to this Committee. Is it made pursuant to any penalties for 
making false statements to this Committee?
    Mr. Schiff. Well, I would imagine that as a correspondence 
and a statement to an official arm of the government engaged in 
an impeachment inquiry, it would be subject to 18 U.S.C. 1001. 
That is just a gut reaction to your question. But we can 
certainly follow up and get you a more definite answer.
    Mr. Gohmert. But it was not made under oath as the 
witnesses--will they be sworn in today?
    Mr. Schiff. The witnesses will be sworn in.
    Mr. Gohmert. So that is not under penalty of perjury as the 
witnesses will have here today?
    Mr. Schiff. That's correct.
    Mr. Gohmert. All right. Thank you.
    Mr. Schiff. It is also, in addition to 18 U.S.C. 1001, an 
offense to obstruct Congress. But in answer to your question, 
vis-a-vis perjury, the letter is not, as I understand it--we 
can consult further with the experts--not made under oath. 
Thank you.
    Mr. Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman. And thank you for 
holding this important hearing in an expeditious manner.
    Article III of the Constitution provides that Federal 
judges are appointed for life, and that they shall hold their 
offices during good behavior. Indeed, the Framers knew that an 
independent judiciary, free of political motivation, was 
necessary to the fair resolution of disputes and the fair 
administration of our laws. However, the Framers were also 
pragmatists and had the foresight to include checks against the 
abuse of the independence and power that comes with a judicial 
appointment.
    Article I, section 2, clause 5 of the Constitution grants 
the House of Representatives the sole power of impeachment. 
This is a very serious power which should not be undertaken 
lightly. The impeachment of a Federal judge is a very 
infrequent occurrence within the halls of Congress. In fact, no 
Federal judge has been impeached in the last 20 years. It is a 
power that Congress utilizes only in cases involving very 
serious allegations of misconduct. However, when evidence 
emerges that an individual is abusing his judicial office for 
his own advantage, the integrity of the judicial system becomes 
compromised, and the House of Representatives has the duty to 
investigate the matter and take the appropriate actions to end 
the abuse and restore confidence in the judicial system.
    Today we are investigating whether to issue articles of 
impeachment against Judge Samuel Kent of the United States 
District Court for the Southern District of Texas. Judge Kent 
has served for almost 18 years as the only Federal judge in the 
Galveston, Texas, Division of the Southern District. Today 
Judge Kent still holds the position of Federal judge despite 
the fact that he is a convicted felon, having admitted to 
obstructing justice by lying during an investigation being 
conducted by his fellow judges that was looking into complaints 
that he sexually assaulted at least two women court employees 
who worked in the Galveston courthouse.
    Judge Kent pled guilty to the obstruction of justice charge 
on February 23rd. In pleading guilty to the obstruction of 
justice charge, Judge Kent also admitted to engaging in, quote, 
repeated nonconsensual sexual contact with a court employee 
and, quote, nonconsensual contact with another employee despite 
requests by the employee that the conduct stop.
    On May 11, Judge Kent was sentenced to 33 months in prison. 
He is due to report to prison on June 15. Despite his guilty 
plea and pending incarceration, Judge Kent has chosen not to 
resign his position as a Federal judge. Because his position is 
a lifetime appointment, Judge Kent will be able to keep the 
position as well as his salary and other benefits until he 
either resigns or is impeached and removed from office.
    Judge Kent was invited to appear at this hearing and 
explain why his conduct does not justify impeachment. His 
attorney was also invited to come today, but both Judge Kent 
and his attorney have declined to attend.
    Two of the women who were the victims of Judge Kent's 
sexual assaults, Cathy McBroom and Donna Wilkerson, have 
decided to come forward and tell their stories to the Task 
Force. I know this is not an easy thing for them to do, and I 
want to personally thank them for their willingness to come 
forward and testify.
    It is not a pleasant task before us today, but it is a 
necessary one. I welcome the testimony of all of the witnesses, 
and I thank you, Mr. Chairman, for holding this important 
hearing.
    Mr. Schiff. I thank the gentleman for his statement.
    And I would now like to recognize Mr. Conyers, the Chairman 
of the Judiciary and ex officio Member of the Task Force.
    Mr. Conyers. Thank you, Chairman Schiff. I will submit my 
statement for the record.
    Mr. Schiff. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Conyers follows:]

Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

    It is always a sad day when the House has to inquire into whether a 
federal judge has betrayed his office and should be impeached. Yet that 
is our task today.
    I would like to make three points:
    First, we meet today to carry out our Constitutional duty. The 
Constitution assigns to the House the exclusive responsibility to 
determine whether a federal judge should be impeached. Impeachment by 
Congress constitutes one of the few checks on the judiciary, to be used 
when a judge betrays his office or proves himself unfit to hold that 
position of trust.
    Second, this inquiry is entirely consistent with precedent. The 
House has not shied away from impeaching federal judges in the rare 
occasions when circumstances have so required. In the 1980s, for 
example, the House impeached, and the Senate convicted and removed, 
federal judges who had been convicted of felony federal offenses. 
Indeed, I am one of the few Members of this House who recalls those 
proceedings.
    Third, our obligations to the House and the Constitution require 
that we not prejudge the evidence in this case, or anticipate the 
course of these proceedings. Judge Kent has pleaded guilty and has been 
sentenced, but it is important that we consider all the evidence before 
casting our votes. Congress's role is more than to simply rubber-stamp 
a conclusion of a federal court.
    In conclusion, I am pleased that the Task Force has moved so 
expeditiously in this matter, and am also pleased that the Task Force 
has made an effort to bring to light the full range of conduct of Judge 
Kent that may bear on his fitness to be a federal judge.
    I look forward to hearing from the witnesses, and with that, I 
yield the balance of my time.
                               __________

    Mr. Schiff. I would now like to recognize Mr. Smith, the 
Ranking Member of the Committee on the Judiciary and ex officio 
Member of the Task Force as well.
    Mr. Smith. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman, for holding this hearing following Judge Samuel 
Kent's guilty plea and sentencing. This public hearing is an 
indication of how seriously we take the possible impeachment of 
Judge Kent.
    Judge Kent, who is from my home State of Texas, comes 
before the Task Force as a convicted felon having pleaded 
guilty to obstruction of justice. As part of the plea 
agreement, five counts of the indictment charging Judge Kent 
with the sexual assault of two court employees were dismissed. 
On June 15th, Judge Kent will start serving a 33-month prison 
sentence. By resigning effective June 1, 2010, Judge Kent is 
attempting to collect his full judicial salary for another 
year, even while he sits in a Federal prison. Judge Kent and 
his lawyer are banking on the fact that impeachments take time, 
literally.
    Judge Kent receives $465 of his taxpayer-funded salary 
every day he remains in office. We are here today to put an end 
to Judge Kent's abuse of authority and exploitation of American 
taxpayers. Allowing Judge Kent to remain on the bench and 
retain a taxpayer-funded salary is an affront to the very idea 
of justice that Judge Kent once swore to uphold. Our 
constitutional democracy depends on the rule of law and the 
equal protection of the laws. These principles depend in turn 
on a disinterested judiciary whose members cannot place 
themselves above the law.
    I am not unsympathetic to the claims that Judge Kent 
endured difficult personal tragedies and may suffer from mental 
illness; however, he does not have the right to continue to 
serve as a Federal judge and to collect a Federal salary while 
sitting in prison. And although his attorney claims that 
Congress has, quote, better things to do than pursue 
impeachment, I disagree. Ensuring that a Federal judge 
convicted of a felony does not receive a taxpayer-funded salary 
while sitting in jail is important to our system of justice and 
a priority of this Judiciary Committee.
    Mr. Chairman, I yield back.
    Mr. Schiff. I thank the gentleman for his statement.
    At this time I will recognize any other Member who would 
like to make an opening statement.
    The Committee recognizes Mr. Cohen of Tennessee and Mr. 
Sensenbrenner of Wisconsin.
    Mr. Cohen. Thank you, Mr. Chairman.
    This is an awesome responsibility to sit on a Committee 
such as this dealing with impeachment. And I have read the 
materials and the allegations that have been presented and what 
is the guilty plea in the judge's case.
    I do want to reflect on the fact that when I was a State 
Senator in Tennessee, we had a similar situation, and we had a 
judge, a State judge, who had confronted not an employee, but a 
litigant before his bench, a female litigant in a divorce case, 
and forced himself upon her. He was tried and convicted, and we 
were unable to take his pension and judgeship away from him 
because of the issue of prospective legislation and retroactive 
activity. But we were able to pass a law because of that to in 
the future not allow a judge who was convicted of a crime 
pertaining to their office and in the conduct of their office 
from receiving a pension or a salary after conviction.
    It was a very important issue in our State, and it is 
unfortunate that because of our laws we couldn't do anything 
about it, and that judge continues to receive his pension. And 
I think that it is something that many feel is--and I do--was a 
miscarriage of public trust and of public treasuries. And I 
have done everything I can and believe I have come into this 
hearing without prejudicing my own thoughts based on the 
experience I had on a similar-type case. But I do think public 
officials need to maintain the public's faith in the system, 
and the public tax dollars should only go to people who are 
doing such, and if not, reflect poorly on the state of the 
judiciary or our government in general.
    So this is a case that is kind of a deja vu to me, and I do 
think that the public Treasury should be protected as should 
the public trust. Thank you.
    Mr. Schiff. I thank the gentleman from Tennessee and now 
recognize the gentlemen from Wisconsin, Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. First 
of all, let me thank you for holding this prompt hearing and 
inquiry on whether Judge Kent should be impeached.
    There is an urgency involved in this because in less than 2 
weeks, Judge Kent will go to jail, and if the Congress doesn't 
move, and that means both the House and the Senate, he will be 
sitting in jail collecting a full judicial salary, which is 
equal to the salary that is paid to the United States Senators 
and Members of the House of Representatives. That in itself 
would be outrageous.
    Judge Kent has admitted to the activity that brought about 
his conviction, and, unfortunately, he is putting Congress 
through the time and expense of actually conducting this 
inquiry and potentially impeaching him and trying him before 
the Senate of the United States.
    Let me point out as a result of his felony conviction, he 
will undoubtedly be disbarred in Texas and consequently will no 
longer be able to practice law even if he still remains a judge 
in the year before his resignation becomes effective. That 
means we do have to drop whatever we are doing and go ahead 
with this simply as a result of the need to keep the public's 
faith in the judicial branch of government and our ability to 
remove those bad apples from office who refuse to go 
voluntarily.
    So I thank the gentleman from California for promptly 
scheduling this hearing. I hope that we'll proceed to a 
Committee markup on articles of impeachment and presenting them 
to the House equally promptly. And I yield back the balance of 
my time.
    Mr. Schiff. I thank the gentleman from Wisconsin, and I now 
recognize the gentleman from Georgia Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman, for bringing this 
issue promptly to our attention as well as to the American 
people.
    The integrity of our judicial system and our judiciary is 
fundamental to the functioning of our legal system. And as a 
former judge and Chairman of the Subcommittee on Courts and 
Competition Policy, I am aghast at the shamelessness of Judge 
Kent, which has been displayed by trying to enhance his pension 
benefits, and it is--the right thing to do is for him to resign 
immediately. And that is pretty much my statement, sir.
    Mr. Schiff. I thank the gentleman.
    I'm sorry. I had someone whispering in my ear. Did you 
yield back the rest of your time?
    Mr. Johnson. Certainly I do.
    Mr. Schiff. Thank you. I thank the gentleman from Georgia.
    Does any other Member wish to make an opening statement at 
this time?
    Ms. Jackson Lee. Congresswoman Jackson Lee.
    Mr. Schiff. You do want to be recognized?
    I recognize the gentlelady from Texas Ms. Jackson Lee.
    Ms. Jackson Lee. Did Mr. Gonzalez----
    Mr. Gonzalez. I'm waiving opening statement.
    Mr. Schiff. You're recognized.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, for 
holding the meeting.
    I think it is appropriate for me to not accept the burden 
of an entire State, but it is sad that this case has occurred 
in the State of Texas and particularly in the Houston-Galveston 
area, which I happen to have the opportunity to represent.
    I'm also disappointed that the Fifth Circuit did not find a 
way to resolve this in light of what we have at least heard on 
the issues of the mental state of the individual that we have 
before us, but I will keep an open mind so that we can address 
the questions both of the integrity of the bench, which I think 
is enormously important, and get the particular bench that 
Judge Kent held in the hands of an individual that will carry 
out justice and the law; but I will also call upon his grace 
and mercy for the understanding of the actions of individuals 
who may be impacted by mental health needs and substance abuse, 
certainly characteristics that we don't promote for individuals 
on the bench. But I will be listening to the presentations made 
by various stellar witnesses here who themselves have been 
victims and as well try to utilize in addition to the 
responsibilities of this Committee as it relates to the 
impeachment of Federal officials, I will also try to 
incorporate in my thinking his grace and his mercy.
    I yield back.
    Mr. Schiff. I thank the gentlewoman for her remarks.
    And would any other Member like to make an opening 
statement?
    Seeing none, at this point we'll hear from Mr. Alan Baron, 
special impeachment counsel for the House Judiciary Committee, 
who I have asked to set out the procedural history of the case 
for the purpose of introducing the documentary record.
    Mr. Baron is currently a partner at Seyfarth Shaw law firm 
here in Washington. He is a graduate of Princeton University 
and Harvard School of Law. After law school Mr. Baron clerked 
for the Honorable Roszel Thomsen, chief judge of the U.S. 
District Court for the District of Maryland. He then held the 
position of assistant United States attorney for Maryland from 
1967 to 1970 until entering private practice.
    Mr. Baron served as special impeachment counsel for the 
U.S. House of Representatives from 1987 through 1989 by working 
on two judicial impeachment proceedings during that time. Mr. 
Baron was retained in October of 2008 as special impeachment 
counsel by the House Judiciary Committee with regard to the 
possible impeachment of U.S. district Judge Thomas Porteous and 
thereafter U.S. District Judge Samuel Kent.
    Mr. Baron, please proceed.

  TESTIMONY OF ALAN BARON, SPECIAL IMPEACHMENT COUNSEL, HOUSE 
                   COMMITTEE ON THE JUDICIARY

    Mr. Baron. Thank you, Mr. Chairman.
    Mr. Schiff. You'll need to turn your mike on if it is not 
on already.
    Mr. Baron. Is that working?
    Mr. Chairman, at the direction of----
    Mr. Schiff. Mr. Baron, can you pull the microphone a little 
closer to you? That might help.
    Mr. Baron. Mr. Chairman, at the direction of the Task 
Force, I and the staff undertook to investigate these 
allegations concerning Judge Kent. One of the first things we 
did was review the criminal case file where Judge Kent was 
named as a defendant and gather various documents pertinent to 
those proceedings. From reviewing those documents, I would like 
to relate certain basic facts concerning Judge Kent and also 
with regard to the chronology of the proceedings involving 
Judge Kent.
    Judge Kent is 60 years old. He was born in June 1949. He 
has served as judge for the U.S. District Court of the Southern 
District of Texas in the Galveston Division, and he was the 
only judge in the Galveston Division. He was nominated in 
August 1990 to ascend to the bench, and he received his 
commission in October 1990. He has served some 19 years.
    Initially a complaint was filed against Judge Kent by the 
person who is referred to as Person A. That is Cathy McBroom, 
who is here today to testify. She filed a complaint on May 21, 
2007, with the Fifth Circuit judicial counsel raising 
allegations of sexual misconduct by Judge Kent.
    On June 8, 2007, Judge Kent voluntarily, and indeed at his 
request, appeared before the commission. On September 27, 2007, 
Judge Kent was reprimanded and suspended by the Fifth Circuit 
counsel for a period of 4 months, and thereafter Ms. McBroom 
appealed the disposition of his case in that manner. At 
approximately that time, she asked for it to be reconsidered, 
but approximately at that time the Justice Department began an 
investigation of Judge Kent, and they returned, as you refer 
to, the original indictment that was referred to--returned on 
August 28, 2008.
    And if the Members would look in the binders that I believe 
each of them has, they should have before them the original 
indictment, which has three counts. It is brought in the United 
States District Court for the Southern District of Texas, 
Houston Division, and it relates that Judge Kent was a U.S. 
district judge in the Southern District, and relates that he 
engaged in improper sexual conduct with Person A, who has since 
been identified as Cathy McBroom.
    Thereafter, on January 6, 2009, there is a superseding 
indictment, which also should appear in the binder. That 
document contains six counts. The first three are the same 
first three from the original indictment involving Ms. McBroom. 
Counts 4 and 5 relate to yet another person identified in the 
superseding indictment as Person B. That is Donna Wilkerson. 
Both Ms. McBroom and Ms. Wilkerson are here today to testify, 
as noted earlier.
    These counts speak of attempted aggravated sexual abuse, 
abusive sexual contact, and they delineate in some detail the 
actual conduct involved. There is a count 6 in the superseding 
indictment, which is obstruction of justice in violation of 18 
U.S.C. Section 1512(c)(2). That is the count to which 
ultimately Judge Kent pleaded guilty, and what it essentially 
alleges is that when he appeared before the Fifth Circuit 
counsel in June of 2007, he lied to them. He falsely stated to 
them, according to the indictment, that the extent of his 
unwarranted sexual conduct with Person B was one kiss, and when 
told by Person B his advances were unwelcomed, no further 
contact occurred, when, in fact, and as he well knew, he had 
engaged in repeated, unwanted sexual assaults of Person B, et 
cetera.
    That was the essence of the lie, and then it alleges that 
obstructed, influenced and impeded the Fifth Circuit's 
investigation into the misconduct that had been complained of.
    Ms. Jackson Lee. What page is that?
    Mr. Baron. That appears at page 6 and 7 of the superseding 
indictment as count 6.
    Ms. Jackson Lee. Thank you.
    Mr. Baron. Now, thereafter, on February 23rd, there are 
three documents that are relevant. There is a plea agreement 
that is entered into on February 23, 2009. There is a factual 
basis for the plea, and then there is a transcript of the 
guilty plea proceedings, all of which are dated February 23rd.
    Looking first at the factual basis for the plea, 
particularly at page 2, it relates the details of the manner in 
which Judge Kent engaged in obstruction of justice, and 
essentially that the counsel had sought to learn from him the 
facts, and in essence he lied to them about the nature and 
extent of the sexual conduct which was being investigated.
    There is also a plea agreement dated February 23rd.
    I would also note, to go back for a moment, that document, 
the factual basis for the plea, is signed by Judge Kent and his 
counsel.
    There was also a plea agreement dated February 23rd. Page 
1, he agrees--that is the defendant Judge Kent--agrees to plead 
guilty to count 6, and the State--the prosecutors agreed to 
dismiss counts 1 through 5 of the superseding indictment. On 
page 2 of the plea agreement, it notes that the maximum penalty 
under count 6 was 20 years of imprisonment and a fine of 
$250,000. Further down the page on page 2, under ``factual 
stipulation,'' Judge Kent agrees that the attached factual 
basis for the plea fairly and accurately describes the 
defendant's action and involvement in the offense to which the 
defendant is pleading guilty. The defendant knowingly, 
voluntarily and truthfully admits the facts set forth in the 
factual basis for the plea.
    There is a transcript of the guilty plea in court when 
Judge Kent appeared to actually be rearraigned. He had 
initially pleaded not guilty, and then he was being rearraigned 
with regard to count 6 of the superseding indictment.
    It is noteworthy that as part of that process, it is 
incumbent upon the judge who is taking the guilty plea to 
explore to be certain that the defendant understands what his 
rights are, that the defendant knowingly can--is competent to 
participate in the guilty plea proceedings, he understands 
which rights he is giving up: the right to jury trial, the 
right to have the government prove its case beyond a reasonable 
doubt, the right to testify, the right not to testify, that he 
was entitled to presumption of innocence.
    The judge goes through that entire litany with Judge Kent, 
which, of course, Judge Kent would have been familiar with 
because he had served as a Federal judge for all those years, 
and at the end of that discussion, and this occurs at page 18 
of that transcript, here is the judge speaking: And most 
importantly, I find that you, Judge Kent, have made your 
decision to plead guilty to this charge freely and knowingly 
and voluntarily. And you've made that decision with the advice 
of counsel, an attorney with whom you've indicated your full 
satisfaction. So let me ask you now, Mr. Kent, how do you plead 
to count 6 of the superseding indictment?
    And then the defendant states, guilty.
    I would go back just for a moment to page 10 of this 
transcript at line 18. The Court, in its colloquy with Judge 
Kent, says to him, the plea of guilty has the legal effect of 
saying the charge is true. You understand that?
    Judge Kent replies, yes, sir.
    We also have the transcript of the sentencing proceeding 
before the judge. That is a fairly extensive colloquy because a 
great deal of time----
    Mr. Schiff. Mr. Baron, that is item 3 in the Task Force 
binders?
    Mr. Baron. Yes, sir. That is.
    The next document. An extensive colloquy occurs at that 
point because one of the issues was where Judge Kent fit within 
the sentencing guidelines, and there is sparring back and forth 
between counsel and with the judge about how to calculate where 
he stands within the sentencing guidelines. In the course of 
that, I would ask and direct the Task Force's attention to page 
6. The prosecution was in effect arguing for a higher number 
within the sentencing guidelines, and it makes this 
representation. I'm looking now at--well, we can start at line 
1. This is the prosecutor speaking. He says, during the 
voluntary interview, he was interviewed regarding his conduct, 
and he repeated the same false statements that he later told to 
the special investigative committee both about Person A and 
about Person B. Then just before the trial team was going to 
present the initial indictment to the grand jury--this is in 
August of 2008--the defendant, through his attorney, asked for 
a meeting at main Justice headquarters, and there in the 
Assistant Attorney General's conference room he sat down with 
his attorney and met with, among others, the trial team, the 
FBI agents, the chief of the Public Integrity Section and the 
Acting Assistant Attorney General, and during the interview 
portion of that meeting, he again repeated the same lies. He 
said that he had been honest with the FBI in December of 2007, 
he said that any attempt to characterize the conduct between 
him and person as nonconsensual is absolutely nonsense, and 
that is in stark contrast to the factual basis for his plea 
during which he admitted in engaging in repeated nonconsensual 
sexual contact with Person A without her permission. And he 
goes on with regard to Person B. And this was not refuted by 
Judge Kent or his counsel.
    They argued about what its significance was in terms of the 
sentencing guidelines, but he did not deny that he had also 
lied to the FBI and to the prosecutors on this other occasion.
    Ultimately the judge imposed a sentence of 33 months, plus 
a $1,000 fine and several thousand dollars to each of the 
victims as kind of restitution. They both testified at the 
sentencing in the context of impact on them as victims of Judge 
Kent's behavior, and that is also found within this transcript.
    I have obtained certified copies of the various--many of 
the various documents I have referred to, the original 
indictment, the superseding indictment, the plea agreement, the 
factual basis for the plea. These are all here. I would offer 
them to the Task Force so that that could be made part of the 
record.
    Mr. Schiff. Without objection, each of those documents will 
be made part of the record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Mr. Baron. I would also offer the transcript of the guilty 
plea and the transcript of the sentencing, which the guilty 
plea transcript is dated February 23, 2009. The transcript of 
the sentencing is dated May 11, 2009.
    Mr. Schiff. Those documents will also be made part of the 
record.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                              ----------                              


    Mr. Baron. Finally one other document. There is an official 
court document. It is the judgment of conviction in a criminal 
case, and that, too, is dated May 11, 2009.
    Mr. Schiff. That will be made part of the record as well.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Baron. Now, subsequently, Judge Kent sought to retire 
on disability, and he presented that to the Fifth Circuit 
specifically. It was to be considered by Chief Judge Edith 
Jones. Judge Kent presented to her voluminous materials 
concerning his physical and mental health and his personal 
history, and this is not an adversarial proceeding. There were 
no countervailing doctors or anyone to argue. This was his 
petition. On May 27, 2009--this document also should be in the 
folders, I believe, that the Members have.
    Chief Judge Jones considered all of the materials that had 
been submitted to her, and let me quote from the letter. She 
says, in order to evaluate this request, I have considered 
numerous medical, psychological and psychiatric reports 
concerning Judge Kent. I have spoken with nearly all of the 
doctors who prepared those reports. And, skipping down, she 
says, finally I have sought legal advice from the general 
counsel of the administrative office of the courts.
    She then goes on to conclude--this is on the second page at 
the bottom of the second paragraph of her letter--taken 
together, these facts do not show that Judge Kent's performance 
of professional duties was affected by mental instability or 
alcoholism before he was criminally investigated and indicted. 
And ultimately the bottom line is, for these reasons I deny the 
request to certify Judge Kent as disabled pursuant to 28 U.S.C. 
Section 372(a).
    I would offer that that letter also should be made part of 
the record.
    Mr. Schiff. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Baron. The Committee also received a letter dated June 
1, 2009, and it is headed ``Statement of Judge Samuel B. Kent 
Provided to the Task Force to Consider the Possible Impeachment 
of Judge Samuel B. Kent.'' Judge Kent notes that his health 
does not presently allow him to travel to Washington to address 
the Task Force in person, and then he asks that his letter be 
accepted as his written statement and to afford it any 
consideration the rules may allow.
    I would request that that also be made part of the record.
    Mr. Schiff. Yes. That has been made part of the record as 
well. I encourage the Members to read that.
    Mr. Baron. Finally, Mr. Chairman, Members of the Task 
Force, there is a letter dated June 2, 2009. It is addressed by 
Judge Kent to the President of the United States. It reads as 
follows: Dear President Obama, I hereby resign from my position 
as United States district judge for the Southern District of 
Texas effective June 1, 2010. So effectively 1 year from then.
    I would ask that that also be made part of the record.
    Mr. Schiff. Without objection.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Baron. That concludes my testimony.
    Ms. Jackson Lee. Is that letter in our folder, that last 
one that you read----
    Mr. Baron. We got it in pretty late. We do have copies for 
everyone. It is not in the folder, but we will distribute it. 
There is someone ready to do that right now.
    Mr. Schiff. We'll make sure that each of the Members gets a 
copy of that letter.
    Mr. Baron, thank you.
    What I'd like to do now is turn to the first panel of 
witnesses, and Mr. Baron will be available after the witness 
testimony should Members have questions regarding the 
procedural posture of the case.
    Thank you, Mr. Baron.
    Mr. Gohmert. Mr. Chairman, could I make a parliamentary 
inquiry? Was there--in the transcript, the witness was alluding 
to--there was mention of 413 notice in which they said it 
wasn't just Person A, it wasn't just Person B, there were 
additional victims of this defendant? Is that 413 notice--was 
that made a part of our record as well by this witness? Was 
that something that you had submitted?
    Mr. Schiff. Mr. Baron, you can speak to that.
    Only the documents that I think Mr. Baron referred to have 
been made part of the record.
    Mr. Gohmert. Then that was not one of them then.
    Mr. Schiff. That's not one of the documents that this 
witness has presented.
    Mr. Gohmert. Thanks.
    Mr. Schiff. Thank you, Mr. Baron.
    Mr. Baron. Thank you.
    Mr. Schiff. Why don't we begin. If the witnesses could come 
forward to the table. We have been paced for a series of two 
votes, So we will begin the testimony, and then we'll break and 
return as soon as the votes are concluded. If our three 
witnesses could come to the table, that would be great.
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Schiff. Yes.
    Ms. Jackson Lee. Just a moment of personal privilege, just 
a moment. Let me acknowledge Mr. Rusty Hardin, who has 
commended himself well. This gentleman--is he counsel? Mr. 
Terry Yates. And I assume from the Houston area? If you would 
allow me to acknowledge the gentlemen for commending themselves 
well. And I know that Mr. DeGuerin is not here, but all the 
lawyers who participated in this unfortunate set of 
circumstances, I want to thank you for your service. And I 
yield back, Mr. Chairman.
    Mr. Schiff. I thank the gentlelady.
    At this time, I would like to introduce our panel of 
witnesses. Our first witness is Cathy McBroom. Ms. McBroom 
served the Clerk's Office for the Southern District of Texas 
and had encounters with Judge Kent that ultimately led to his 
prosecution and the proceedings today.
    Our second witness is Donna Wilkerson. She served as his 
secretary for 7 years and is also here to describe her 
encounters with Judge Kent.
    Our final witness will be Professor Arthur Hellman at the 
University of Pittsburgh School of Law. He occupies the Sally 
Ann Semenko endowed chair of the university and has been part 
of the faculty since 1975. He is one of our Nation's foremost 
scholars on Federal judicial ethics and has written numerous 
articles on the topic. Professor Hellman has previously 
testified at hearings in both the House and Senate, including 
as a witness before the House Judiciary Committee, on the issue 
of judicial impeachment. His other testimony has centered on a 
range of issues concerning the Federal courts, and he provided 
valuable assistance to Members of the Judiciary Committee in 
drafting legislation to revise the handling of misconduct 
complaints against Federal judges.
    Thank you for your willingness to participate in today's 
hearing. Without objection, your written statements will be 
placed in the record.
    Given the gravity of the issues we are discussing today, we 
would appreciate it if you'd take an oath before you begin the 
testimony.
    Excuse me one moment.
    If each of you would please stand and raise your right 
hand.
    [Witnesses sworn.]
    Mr. Schiff. And I think what we will do is maybe reverse 
the order in light of the votes and--well, one moment, please. 
What we are going to do is we are going to break for votes. 
That way we won't have to break for testimony. We have two 
votes. We'll be back probably in about 40 minutes. Give you all 
a chance to grab a bite to eat, and we'll resume. I ask Members 
to return immediately after casting the last vote.
    Thank you. We are in recess.
    [Recess.]
    Mr. Schiff. The Task Force will come to order.
    Thank you. We'll start, Ms. McBroom, if you could begin 
your testimony. Your written testimony has been made a part of 
the record and thank you for beginning.

    TESTIMONY OF CATHY McBROOM, CASE MANAGER, UNITED STATES 
           DISTRICT COURT, SOUTHERN DISTRICT OF TEXAS

    Ms. McBroom. My name is Cathy McBroom. I've----
    Mr. Schiff. I think your microphone may not be on.
    Ms. McBroom. My name is Cathy McBroom. I have been employed 
by the United States District Court for 10 years. I am the 
victim that is referred to as person A in the indictment 
against Judge Samuel Kent. We're here today because I filed a 
complaint of judiciary misconduct against Judge Kent.
    I began my career as a secretary for judge Nancy F. Atlas, 
and I worked in that capacity for about 3 years. After that I 
decided to pursue a case management position because I thought 
I would be better suited for those type of responsibilities. 
And I applied for the first available position, which was 
actually for Judge Kent out in Galveston.
    I want to describe several incidents to you that are very 
difficult for me to talk about, but I think they are very 
necessary and they may be difficult for you to hear. These are 
incidents that I feel should never happen in the workplace. And 
the fact that they happened to me and they were initiated by a 
Federal judge is even more frightening.
    The very first incident happened to me after I had been 
working for the judge for about 8 months. I actually worked on 
a different floor than the judge, but it was my responsibility 
to come up a couple of times during the day and check my 
outbox, also to bring paperwork to him, motions and things for 
him to review. And on this particular day, I had come up in the 
afternoon to check my outbox. And there was no one in chambers, 
so I had the key, I let myself in, I checked my outbox, and I 
was leaving his office to come back down to the elevator.
    As I was walking down the hallway, I saw him coming toward 
me. And he was laughing and being pretty loud, as he usually 
was. As I approached him, I was actually coming pretty close 
also to the command center. The command center was the place 
where the security guards usually sat and they could monitor 
the building from there. And I noticed in the command center 
there were several of the security guards.
    As I approached the judge, he asked me if I would show him 
the workout room. There wasn't really an official workout room 
in the building, but the guards had actually set up some weight 
equipment, free weights and things, just a few pieces of 
equipment in this little, small, kind of storage room that was 
about 10, 15 feet from the command center.
    I could tell that he was--had been drinking, because he was 
slurring his words when he was asking me to show him the weight 
room. But I went ahead and took him into the weight room and 
pointed out the various exercise equipment that we had. And 
when I turned he grabbed me. And when I say he grabbed me, he 
grabbed with one hand sort of around my waist and he started 
trying to kiss me and he actually did force his tongue into my 
mouth. And at the same time that that was going on, he 
immediately started trying to remove my clothing by--he pulled 
up my blouse, he got his hand underneath my bra and pulled 
everything up at once so that my breasts were exposed.
    I was begging him to stop, telling him please don't do this 
to me, please don't. I really love my job, I don't want to lose 
my job. Please don't do this. He wouldn't listen. I was trying 
to fight him off and keep his hands away from my body parts. He 
also put his hand down--tried to force his hand down my skirt. 
And I noticed that the door to the small--small room that we 
were in was cracked open, and I knew that the security guards 
must be able to hear what was going on in there. I even said, 
Judge, the guards are right outside, I know they can hear us. 
And he said, I don't care who hears us. He wasn't afraid of 
that at all. And that even made me more frightened. I guess he 
felt like he was powerful enough that no one was going to 
approach him and no one was going to come and--come to my 
rescue, and he was right.
    Finally I threatened to just scream. I said, if you don't 
stop I'm going to have to scream. And at that point he--he just 
let go of me and just looked down at me with this disgusted 
look on his face and then he turned and left. And I was very 
shaken and upset and I sat down on a bench that was in the room 
and just cried for a few minutes and wondered what--what do I 
do now, what do I do? And I tried to collect myself, straighten 
my hair, you know, get my clothes back in shape and I left the 
office.
    When I walked out of the office an important thing is that 
I noticed were at least three men in that command center and 
all three of them had gone; no one was there. I really believe 
that they saw what was happening and they wanted to just leave, 
because they didn't want to be involved.
    From there I went immediately down to my supervisor's 
office and I--I walked into her office and I said, why didn't 
you warn me about him? And she said, what--what's going on? And 
I told her he attacked me. And she knew immediately who I was 
talking about. And she asked me to close the door and so I 
closed the door. And she said, sit down, we'll talk. And I told 
her--you know, I described the incident and told her that he'd 
attacked me. And she said, well, do you want to file a 
complaint? And I said I--I don't know what that means, I don't 
know what you mean by complaint. All I know is I don't want to 
lose my job, I know that.
    And she said, well, I can't guarantee that you could keep 
your job. I think that he's a Federal judge and he's not going 
anywhere, and more than likely you're going to be the one to 
go. And I thought about that for a moment and said that I'm not 
going to file a complaint. I want to know what else I can do, 
what are my other options. And she said, if you're not going to 
file a complaint then I'll talk to you off the record.
    So she sat down and she told me that he had done something 
similar to her, but just not to that great of an extent. He 
had--she was up in his chambers one day and he had forced a 
kiss upon her, he had French kissed her. But she said that she 
resisted and that that was an isolated incident that--that 
never happened again. And that had been several years prior to 
what had happened to me.
    And so she really felt like that he would probably talk to 
me later, and maybe even apologize, and maybe I'd never have to 
worry about it again. I hoped that that was true.
    So I went about my business as a case manager and sometimes 
we'd go months without having that type of contact with the 
judge. It would be strictly business for the most part. But 
there were other incidents that arose after that. He started 
calling me on the phone. There were several, I would say 
probably more than 10 episodes, of him calling my office and 
begging me to come up and give him a kiss or just come up and 
talk to him. And I would resist.
    And one other thing I want to say is after that first 
incident, I did tell one of the security guards that he had 
tried to attack me, and I was upset with this particular person 
because he didn't do anything, because he just left. And he 
said that he had to worry about his job, and his job was to 
protect the judge. And he apologized, but he said there wasn't 
anything he could do. So he agreed to try to watch out for me 
in other ways. He agreed to tell me if he knew the judge had 
been drinking, or the judge was looking for me, or he suspected 
that the judge was going to do something like that; he would 
call me ahead of time and give me a heads-up. So that sort of 
helped me to initiate various coping mechanisms that would 
allow me to stay in my position and sort of stay under his 
radar and avoid him when I thought the situation was going to 
be bad.
    Another incident I want to describe is about avoiding him. 
If I knew that he was back from a long lunch and he had 
possibly been drinking and he was the only one up in chambers, 
and I knew it was going to be a dangerous situation, if he 
called me and I could see that it was his extension calling me, 
his private line, I wouldn't answer the phone. I would just 
avoid his phone calls. That was a hard decision to make. As a 
case manager who is there to do your work, you always have to 
analyze, does he want me for real business or does he want me 
there because he wants to have sexual contact with me? It was 
an extremely fine line that I walked, and a very difficult 
position to be in.
    Another incident that happened: He tried to call me several 
times and I wasn't answering, so he came down to my office, 
which was two floors down. He came right into my office, sat in 
front of me, across the desk from me and just started being 
friendly, loud, telling jokes. And, you know, I listened and 
laughed and, you know, I tried to participate the best I could.
    He then stood up and came--started coming around my desk. 
And my instinct was to stand up, too. So I stood up, backed 
away as far as I could from him, and there was a credenza, 
actually just a table that I was using for a credenza behind my 
desk. And I backed up completely against the credenza, and he 
came around the desk, got in between my desk and me, and pushed 
me up against the credenza and pinned me there and started 
kissing and grabbing various body parts. My office door was 
open--and he was a big man, he was over 6 foot, probably closer 
to 6'3'', 6'4''--and I could sort of see over him to the 
doorway to my office and I could see someone come to my office. 
I saw someone there for a moment and they just turned and left. 
I couldn't tell who it was.
    But I feel like that's another example of people 
understanding what was happening there but everybody being 
afraid to address it, afraid to even come forward or say 
anything. That incident ended similarly. It didn't get as far 
as the first incident, because he wasn't able to get my clothes 
up, but I was able to push him away and discourage him enough 
that he eventually just left the room.
    The other incident that I want to describe is one that 
happened right before I left. It was the final incident that 
happened to me. Judge Kent had called me up to his chambers to 
discuss an administrative action that had been taken in the 
Clerk's office, and I came up the elevator and turned to go to 
his office and I noticed there was a security officer sitting 
in the command center again. And he looked at me and said, 
where are you going? I said, I've been summoned to chambers. 
And he just kind of said, well, be careful. I still don't 
understand what he meant by that, but I went down to the 
judge's chambers. His secretary wasn't in, it was just me and 
the judge. He asked me to come directly into his office, asked 
me to close the door, and we had a brief discussion and I was 
about to leave--I said, okay, thank you. And I was about to 
leave the office and he said well, come give me a hug. And I 
said no, let's don't. I don't want to do that. I'm not--please 
don't start that. And he said, oh, come on. I've been good to 
you. You need to come give me a hug, that's the least you can 
do. So I did. I reached up and he came around the desk and I 
was standing there and I reached up and gave him a hug. And the 
instant that I did that he reached around and grabbed my 
backside and pulled me in close to him, and then he started the 
same thing. He started trying to undress me, take my clothes 
off. He yanked my shirt, my sweater that I was wearing, and 
this time my breast was exposed and he did put his mouth on my 
breast. And meanwhile I'm pushing him away.
    That day he had his dog, he had a bulldog that he brought 
to work with him at times, the dog started barking and causing 
a big commotion. I was afraid of the dog because the dog had 
incidents of attacking people, too. So here I had the judge 
attacking me and the dog barking and I was just trying to push 
him away.
    And at some point he pushed my head down toward his crotch 
and asked me to do oral sex on him. He didn't use that 
language, he used more explicit language. And then I resisted 
and he grabbed my hand and placed my hand on his crotch. And I 
was just still trying to push him away and escape and beg him 
to stop. And at some point I heard someone come into the outer 
office. And he heard that, too, and so that momentarily 
distracted him enough to where I could break free.
    And when he went into the outer office to investigate who 
had come in, I made my exit. And as I was leaving the office he 
made a statement to me that he thought I was a great case 
manager and that I did excellent work for him, but it didn't 
change the fact that he wanted to do sexual things to me. These 
things are described in my written statement but they are too 
embarrassing for me to talk about in public.
    At that point I felt afraid enough that I wasn't able to 
go--I knew I would never be able to go back to that office 
again. I knew that I would be in danger if I continued to go 
there. I felt like he--he felt like he had power and control 
over me and could do whatever he wanted to me, and there was no 
one that was going to help me or come to my rescue or even 
believe me.
    So I really didn't have any other alternative but to give 
up my job, and this was a job that I had worked very hard to 
attain. This was a job that I loved the responsibilities. I 
still do. It's something that I had planned to work until my 
retirement in. But I left the office and I decided that weekend 
that I would write a letter to my manager and request a 
transfer. So I did. I wrote the letter, I gave it to my manager 
the next week. And in the letter I described the incidents and 
I also asked for the transfer to Houston.
    So the transfer was granted and I was offered a position in 
Houston that was not a case management position, but it was 
what they had available, so I accepted that position. And I--
you know, the history of my employment is just I worked in that 
position until something of more of a case management in nature 
came available, and I did that for a while. And just recently I 
applied for--now I'm working for another Federal judge in a 
case manager position. So I now have my job back, finally, 
after 2 years.
    One thing I want to say about my transfer back to Houston. 
I was in a position working for the staff attorneys and I had 
been doing that for oh, I guess, a month or so. And it still 
bothered me that even though I had made a complaint to my 
manager and the complaint had been addressed and I had received 
a transfer, I felt that nothing, absolutely nothing, had been 
done to correct the situation in Galveston. And I didn't think 
anything was going to be done to correct that.
    I knew that there were other victims out there and I also 
knew that there will continue to be victims if no one did 
anything. That thought nagged at me and just--I couldn't sleep 
at night because I felt like I had a responsibility to say 
something or do something to ensure that it wouldn't continue 
to happen. So after a couple of months I decided to file my 
judicial misconduct complaint. I wrote it myself, I mailed it 
off myself, and I waited to see how the circuit or the 
committee would handle the complaint.
    Not too long after I filed the complaint, I got a letter 
from Judge Jones stating that a panel of judges would be in 
Houston to interview me. They did that; they came in and there 
were three people that interviewed me. It was two judges and an 
attorney. And it's my understanding that they interviewed other 
people, coworkers and other people they thought were--could be 
witnesses. The problem is that most the people in Galveston 
were extremely afraid of Judge Kent, they were afraid of 
retaliation. And a lot of people didn't feel at liberty to tell 
the truth to the committee of judges. And they didn't feel like 
they should offer any information that could have been helpful 
to the case. They were afraid for their jobs.
    I felt alienated completely, because people who were my 
friends and my coworkers treated me as if I had the plague, 
they were so afraid to be associated with me. Eventually I 
found out that the circuit decided to reprimand the judge. And 
in the reprimand they gave him 4 months of administrative 
leave, with pay, as his punishment. That didn't seem entirely 
fair to me. They also classified what happened to me as sexual 
harassment. In my opinion what happened to me went way beyond 
sexual harassment. That's when I decided to go forward with a 
criminal complaint.
    The criminal investigation brought on a whole--a whole new 
form of stress. I mean there was--everything that I did, I felt 
was under a microscope. Everyone was looking into my 
background, they were subpoenaing all of my records, my 
telephone records, my e-mail records, everything; everything I 
did became public. And that was very frightening and incredibly 
stressful not only to myself, but to my family. Seeing their 
mother's name in the news and the way that--it was linked to 
his claims of our ordeal being enthusiastically consensual was 
just beyond belief. My children had to listen to comments from 
other people about was it a consensual act, things like that, 
or things that kids should never have to deal with.
    My marriage suffered terribly to the point of just 
disaster, because I was so--I was so completely stressed, I 
suffered from anxiety, depression, loss of sleep. I barely 
could even go to work every day, but I knew I had to have my 
income and I had to continue on. So the very best I could do 
was go to work and come home. I wasn't able to manage my family 
responsibilities, you know, decisions with the kids and making 
sure they met their deadlines in school and things like that. I 
was not capable of doing that. And everyone relied on me to do 
that, so I feel like I really let my family down in that area. 
And I wasn't able to meet my husband's needs. All of that 
contributed to an impact on my family.
    So I just ask that you consider all of this when you vote 
to impeach Judge Kent because it's just--it has been an 
incredible ordeal for me, for my coworkers, for my family, for 
the other victims involved. And I think it's very important. 
Thank you.
    Mr. Schiff. Thank you, Ms. McBroom. We very much appreciate 
your willingness to come and testify today, and I know how 
difficult it is. Thank you.
    [The prepared statement of Ms. McBroom follows:]

                  Prepared Statement of Cathy McBroom

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Schiff. Ms. Wilkerson.

 TESTIMONY OF DONNA WILKERSON, LEGAL SECRETARY, UNITED STATES 
           DISTRICT COURT, SOUTHERN DISTRICT OF TEXAS

    Ms. Wilkerson. Thank you, Mr. Chairman. Thank you for this 
opportunity to let you know my story. I'm very nervous and 
don't do well at public speaking so I ask for a little patience 
with me.
    My name is Donna Wilkerson, I am 45 years old. I live in 
Santa Fe, Texas. I'm happily married to my husband of 25 years 
and we have two teenage children who attend high school in 
Santa Fe. I was a legal assistant and secretary in the private 
sector for 19 years before going to work for the Federal 
Government, and have worked for Judge Kent for the last 7 years 
as his secretary in his chambers. I began working for Sam Kent 
at the Federal court in December 2001. I left a happy and 
rewarding career in the legal field to take what I felt was a 
once-in-a-lifetime career opportunity as a secretary to a 
Federal judge.
    This job provided an income which exceeded my past salary 
in the private sector, with excellent benefits for my family 
and me. And it was a 20-minute commute from my home as opposed 
to the law firm jobs I had in Houston, some 40 miles away.
    One reason I am here today is to shed some light on what 
until now has been viewed by many as sexual harassment and 
sexual misconduct by Judge Kent. But in fact, it wasn't just 
sexual harassment and sexual misconduct. His acts were sexual 
assault. I have detailed those--these incidents involving these 
assaults and the more minor incidents of misconduct and 
harassment in my written statement that has been provided to 
the Task Force.
    I was a 7-year victim of Sam Kent's sexual and physical--
psychological abuse, I'm sorry. During my interview for this 
job and several times subsequent to my being hired, Sam Kent 
told me that he was the sole person responsible for his 
personnel staff's hiring and firing, and his personnel staff 
consisted of me and his two law clerks.
    He also told me that he was the government. He would make 
statements routinely: I am the government, I'm the Lion King. 
It's good to be king. I'm the emperor of Galveston, the man 
wearing the horned hat guiding the ship.
    He warned me in my interview, three things which he said 
would not be tolerated and would be grounds for my or our--with 
the staff--immediate dismissal: Disloyalty to him, talking out 
of school as he put it, and by engaging in behavior that would 
be an embarrassment to the court.
    Sam Kent's sexual abuse and misconduct with me began on the 
fifth day of my job in December of 2001. He'd had a retirement 
party that was hosted by some friends for his retiring 
secretary whom I was taking her place. There was drinking and 
eating at that luncheon. And once there, while his retiring 
secretary and others were in the reception area of the 
chambers, he called me into his office and shut the door. He 
sat behind his desk and I sat in a chair in front of his desk. 
He told me that he was very excited to have me coming to work 
for him, to take Ms. Henry's place; that he thought I would be 
an asset to him and the operations of the court and that he 
thought I was intelligent and pretty and other random 
compliments.
    As he got up, appearing to be showing me out of his office, 
I was walking in front of him to the door. He reached for the 
door as if to open it for me but put one of his hands on the 
door and the other hand on the other side, putting me between 
the door and him. He leaned in and placed a kiss on my mouth. 
After that he told me how beautiful he thought I was and that, 
again, he was glad I was there. I did not know what to do, but 
in my shock I did nothing but exit the room thinking, what in 
the world was that and how am I supposed to handle this?
    From that point forward, the abuse became more frequent and 
more severe. The number of these incidents from minor to most 
severe can be averaged at one to two times per month over a 
year's time for a period of approximately 5 to 5\1/2\ years, 
from 2001 to 2007.
    Again, these episodes as to severity are set out in my 
written statement. These episodes were routinely followed by 
Judge Kent returning from long lunches where he was 
intoxicated. And there were periods in this time that I--that 
Judge Kent would stop drinking for several months and weeks at 
a time. There would be times where he was out on extended 
periods from the office wherein he obviously didn't have any 
contact with me.
    I've explained in the past that the severity of the sexual 
abuse can be described using a bell curve as an example, 
starting with the most minor of incidents of hugs and kisses 
and escalating to the worse incidents of touching me 
inappropriately, groping me outside my clothes, then inside my 
clothes, both top and bottom, then attempting to and gaining 
penetration in my genitals with his hand and placing my hand on 
his crotch. And then there was one, or possibly two, most 
severe incidents of sexual assault.
    These episodes always occurred inside of his chamber, 
sometimes in his office, and sometimes in the reception area, 
or wherever in chambers he could corner me. Preceding the 
incident he would always begin speaking in a vulgar and 
inappropriate way to me, and telling me graphically what he 
wanted to do to me. During these episodes I repeatedly told him 
no, stop, stop acting like a pig, quit, cut this out, you 
can't--we can't be doing this. I don't want to do this, behave 
yourself, and so on and so on.
    There were times when he would approach me from behind 
while I was sitting at my desk and working at my computer. He 
would quickly come up behind me and put his hands over my 
shoulders and grope me on the outside of my clothes and then 
down my shirt and into my bra. Sam Kent is a 6'4'' man weighing 
260 to 300 pounds in any given period. Once cornered, caught, 
or pinned there's no getting away. Each time when I was at my 
desk and I knew that he was coming toward me in this manner, I 
would scoot my chair under my desk as far as I could, crossing 
my legs and arms to try to close myself off from him, all the 
while telling him no. He would keep trying to get his hands on 
me, but sometimes in this position I could literally keep his 
hands from moving and keep his hands off of me to the point 
that he would stop. But most times, however, I was not 
successful.
    At those times I would attempt to move away to an area in 
the office where he would not--where he could not corner or 
trap me, literally even getting pieces of furniture in between 
us. I tried at all costs not to go inside of his office if he 
were in there and calling for me. I would stand in the doorway 
and talk to him and try to keep him off of the subject.
    I know that it may be hard for some to understand or wonder 
how I could have endured this situation without doing anything 
about it. The reasons are many. My job was one that afforded--
I'm sorry--offered a significant amount of pay and benefits, 
even more than that of my husband. I could not afford, nor do I 
want to leave this job providing more than half of the income 
for my family.
    My husband is a man with a fairly short fuse, a man of very 
few words who believes that part of his job as my husband and 
father to our children is to protect his family. Had I told him 
of even the first episode, the most minor of episodes, he 
literally would have gone to Galveston courthouse and ``taken 
care of the situation.'' I was very afraid of how he would 
handle that situation. Any altercation, verbal or physical, 
with Sam Kent would have resulted in my being fired. My husband 
would face any variety of criminal actions and Sam Kent would 
have blackballed me from the Galveston County legal community.
    After the incidents became more severe, my husband's 
reaction would have also been more severe. And whom exactly was 
I supposed to tell after he repeatedly told me that he was the 
government, he was the only one responsible for firing and 
hiring me. He made it clear, over and over, that he was the 
only person who made the decisions about his employees. And he 
had made that evident by his getting rid of and transferring 
several employees of the court whom he did not like or he felt 
needed to be replaced because of his own reasons.
    One final and painful realization in my coming forward was 
dealing with my 14-year-old daughter and describing to her how 
she should conduct herself, how she should never put herself in 
a position that she has to take abuse from any young man, old 
man, and what she should do; and that no job, no situation, is 
ever worth that. How could I look her in the face and tell her 
these things when I couldn't do it myself? So I had to come 
forward, I had to do the right thing.
    Sam Kent has spent his life manipulating people and abusing 
his relationships with people. Abusing people not just 
sexually, and not just women. Certainly this has been my 
experience the whole time I've known him.
    He has also spent his time lying to everyone. He is a 
compulsive liar and he will never acknowledge what he has done 
to the people around him. He continues to try to manipulate the 
system and make excuses for his abhorrent behavior.
    In the criminal case against him--although some of his lies 
were uncovered by his own admission--because of his narcissism 
and inability to admit fault and accept fault, he turned to 
even more lies by publishing ridiculous statements in the 
newspaper and blaming everyone and everything but himself.
    Although this plea bargain required his claiming personal 
responsibility for his actions, as soon as he was, out of the 
courtroom he made statements to the press through his lawyer 
which were lies, and made ludicrous excuses for his past lies.
    I did not fully realize how Judge Kent manipulated me until 
I was able to get out of his web, as he commonly referred to 
his position with the people involved in his career and his 
life.
    I now realize how he maliciously manipulated and controlled 
everyone and everything around him. Through the entire time I 
was in this situation with Judge Kent he basically attempted to 
buy me, buy my silence as well as others. He continued to 
manipulate and control what I and others would say after the 
action began by threatening to take his own life.
    Before my first grand jury appearance, after he returned 
from administrative leave, 20 minutes before my scheduled 
appearance, he came to my desk and told me if anyone from Dr. 
Hirschfeld's office calls--that's his psychiatrist, one of his 
psychiatrists--please put them through right away. You know 
they have me on suicide watch again, right? He even instructed 
his law clerk in my presence to research his life insurance 
policy to make sure that it did not contain a suicide 
exclusion, so that if he killed himself his wife would still be 
paid the benefits.
    On another occasion, before my last grand jury appearance, 
he told the law clerk that if I rolled on him, it would be all 
he could take and he would kill himself. And of course she, 
being my friend knowing the true story, notified me 
immediately, as she was worried that he might carry out with 
the plan, but that was exactly what he wanted her to do. He 
abused those around him and misused the power that his position 
brought him. He said that he hated bullies. And how sad is it 
that he himself is the biggest bully of them all?
    He continued his manipulative behavior in seeking a mental 
disability when, just 2 years ago, he fought very, very hard to 
make his accusers and the investigators know that he was fully 
capable of keeping his bench.
    I've heard today that he wrote a letter saying that he was 
unable to travel here because of health concerns and health 
reasons.
    It is all contrived. I probably know Judge Kent as well as 
anyone could. And I have to agree with Judge Jones' assessment 
that his problems, psychologically and physically, have, of 
course, been brought on by this situation. And yes, he is 
psychologically impaired and a broken man, as he said, now. But 
I truly believe that it's because of this situation. Who 
wouldn't be psychologically troubled by this situation?
    Judge Kent liked to say that he had to treat the lawyers 
who appeared before them harshly, because if he was nice to 
them that they would take advantage of him. He said that people 
misunderstood kindness as weakness, and now I know that this is 
what he truly believes. He saw my kindness to him as weakness, 
and he took complete advantage of me. He abused his power 
continuously and believed that no rules truly applied to him. I 
witnessed this over and over and can give so many examples of 
this behavior. He mocked, made racist comments. It pains me to 
say that he routinely used the N word and abused criminal 
defendants who came before him, litigants, lawyers, his 
colleagues and people in his everyday life.
    My life has been truly affected in ways that I can never 
describe. No one can fully understand what it was like for me 
to have this happen to me. My family and I are in counseling to 
deal with the pain that he has caused. Our lives have been 
turned upside down.
    I have teenage children who have had to hear the ugly 
details of sexual abuse perpetrated by someone they once loved 
and trusted. On a daily basis I struggle with the past and the 
pain that this situation has caused me. I'm mentally exhausted, 
and every day is a struggle to heal, move forward and literally 
function. My marriage has suffered significantly from the 
stress of this situation, and I pray that it will survive. I am 
angry at the toll that this has taken on me and my family and 
the precious time I have been pushed, pulled, and taken away 
from my children and my husband, time I can never regain. I 
worry constantly about what my future will be like, both 
personally and professionally. Until this matter is completely 
concluded, the reality is that I'm reminded of the situation 
daily and it is a source of constant angst and a complete drain 
of my emotional and physical energy.
    Ironically, until Sam Kent is off the bench, even the 
administrative office will not release me from his grips. I am 
still tied to him as a personal employee, tied to his budget, 
and any attempt to reassign me has not been successful; but yet 
he continues to earn his yearly salary as not only a convicted 
felon but also a man who possesses all of the horrific 
characteristics of everything a Federal judge is not ever 
supposed to be, but who still holds on to his position and 
seems to have protection from the real world.
    Yesterday Judge Kent sent a letter to the President 
advising of his resign--resignation as of June 2010. I ask for 
your help in seeing to it that the right thing is done and that 
he be removed from his bench as soon as possible. Thank you 
very much.
    Mr. Schiff. Thank you Ms. Wilkerson, again we very much 
appreciate your willingness to testify and know how very 
difficult it is.
    [The prepared statement of Ms. Wilkerson follows:]

                 Prepared Statement of Donna Wilkerson

    My name is Donna Wilkerson. I am 45 years old. I live in Santa Fe, 
Texas. I am happily married to my husband of 25 years and we have two 
teenage children who attend high school in Santa Fe. I was a legal 
assistant and secretary in the private sector for 19 years before going 
to work for the federal government and have worked for Judge Kent for 
the last seven years as his secretary in his chambers. I began working 
for Sam Kent at the federal courthouse in December 2001. I left a happy 
and rewarding career in the legal field to take what I felt was a once-
in-a-lifetime career opportunity as the secretary to a federal judge. 
This job provided an income, which exceeded my past salaries in the 
private sector with excellent benefits for my family, and me and was a 
20-minute commute from my home, as opposed to the law firm jobs I had 
in Houston, some 40+ miles away. During my interview for this job and 
several times subsequent to my being hired, Sam Kent told me that he 
was the sole person responsible for his personal staff's hiring and 
firing (his personal staff consisted of me and his two law clerks). He 
also told me that he was the Government--``I am the Government''; ``I'm 
the Lion King--it's good to be king'', ``I'm the Emperor of 
Galveston'', and ``the man wearing the horned hat, guiding the ship.'' 
He warned me of three things which he said would not be tolerated and 
would be grounds for my/our immediate dismissal: disloyalty to him, 
``talking out of school'', and by engaging in behavior which would be 
an embarrassment to the Court. He told me and subsequently routinely 
told every law clerk a story of a former law clerk whom he ``thought 
was his friend'' but upon the clerk's leaving for his law firm job, the 
law clerk told everyone at the law firm that the judge had a drinking 
problem, routinely became intoxicated on the job, performing many of 
his duties while intoxicated and behaved in a manner unbecoming to a 
federal judge. Mr. Kent advised at the end of that story how he hated 
that law clerk for his betrayal and had not spoken to him since.
    For the last seven years, I was sexually and psychologically 
abused, manipulated and controlled by Sam Kent. His sexual abuse and 
misconduct with me began on the fifth day of my job. I had worked the 
first week at my job with Judge Kent's secretary of 20 years. She was 
retiring. On Friday of that first week, a retirement luncheon was given 
for her at a local restaurant. I was invited to and attended the 
luncheon, which lasted approximately 2-3 hours where food and alcohol 
were served. Mr. Kent, with others, became intoxicated, being loud and 
obnoxious. During the party, pictures were taken of several groups, 
including Sam Kent with his wife, former law clerks, attorneys and his 
retiring secretary. During the taking of those photos Judge Kent joked 
and laughed and grabbed his wife's breasts and buttocks in front of the 
room full of people. After the party, everyone left except the few 
courthouse staff and Judge Kent, who returned to the courthouse. Once 
there, while his retiring secretary and others were in the reception 
area of his chambers, he called me into his office and shut the door. 
He sat behind his desk and I sat in a chair in front of his desk. He 
told me that he was very excited to have me coming on board to take Ms. 
Henry's place, that he thought I would be an asset to him and the 
operations of the court, and that he thought I was intelligent and 
pretty, and other random compliments. As he got up, appearing to be 
showing me out of his office, I was walking in front of him to the 
door. He reached for the door as if to open it for me, but put one of 
his hands on the door and the other one on the other side, putting me 
between the door and him. He leaned in and placed a kiss on my mouth. 
After that, he told me how beautiful he thought I was and that, again, 
he was glad I was there. I did not know what to do, but in my shock, I 
did nothing but exit the room, thinking, ``what in the world was that 
and how am I supposed to handle this?'' From that point forward, the 
abuse became more frequent and more severe. The number of these 
incidents, from minor to the most severe, can be averaged at 1-2 times 
per month over a year's time, for a period of approximately 5-5\1/2\ 
years, from 2001-2007. However, there were periods of time during these 
years that the incidents did not occur as frequently as 1-2 times per 
month because he had periods of weeks and months of not drinking, as 
well as several periods of extended time that he was out of the office. 
These episodes were routinely followed by Judge Kent's returning from 
long lunches wherein he was intoxicated. I have explained in the past 
that the severity of the sexual abuse can be described using a Bell 
Curve as an example--starting with the most minor of incidents of hugs 
and kisses, then escalating to worse incidents of touching me 
inappropriately, groping me outside my clothes, then inside my clothes 
(top and bottom), then attempting to and gaining penetration of my 
genitals with his hand, placing my hand on his crotch, and then topping 
the curve at the most severe episode of once, and possibly twice, 
pulling down my pants and performing oral sex on me. These episodes 
always occurred inside of his chambers--sometimes in his office, and 
sometimes in the reception area or wherever in chambers he could corner 
me. Preceding the incidents, he would always begin speaking in a vulgar 
and inappropriate way to me and telling me graphically what he wanted 
to do to me. Statements of ``you have the cutest titties'', ``let me 
see those cute titties'', ``you have the cutest ass'', ``I want to eat 
your pussy'', and ``why don't you suck me off'' were common to the more 
severe episodes. During these episodes, I repeatedly told him ``no'', 
``stop'', ``stop acting like a pig'', ``quit'', ``cut this out'', 
``you/we can't be doing this'', ``I don't want to do that/this'', 
``behave yourself'', and so on and so on. There were times when he 
would approach me from behind while I was sitting at my desk and 
working at my computer. He would quickly come up behind me and put his 
hands over my shoulders and grope me on the outside of my clothes and 
down my shirt and into my bra.
    Sam Kent is a 6'4'' man, weighing 260-300 pounds, in any given 
period. Once caught, cornered or pinned, there was no getting away. 
Each time when I was at my desk and I knew that he was coming towards 
me in this manner, I would scoot my chair under my desk as far as I 
could, crossing my legs and arms to try to close myself off from him. 
All the while, telling him ``no''. He would keep trying to get his 
hands on me, but sometimes in this position, I could literally keep 
moving his hands off me to the point that he would stop. Most times, 
however, I was not successful. Many times he would come towards me, 
with his hands out, saying ``let me see those cute titties'', and other 
times he would come towards me saying other vulgar things. At those 
times, I would attempt to move away to an area in the office where he 
could not corner, trap or pin me--try to get a piece of furniture 
between us. I tried at all costs to not go inside of his office if he 
were in there and calling for me--I would stand in the doorway and talk 
to him and try to get him off the subject. During the most severe 
episode, he pinned me to a chair in his office after pulling my pants 
and underwear down.
    When invited out to the lunches wherein he became intoxicated, we, 
his staff, were expected to go. If one of us didn't go, for whatever 
reason or excuse, he would be obviously upset with us about it, pout 
about it, and even tell the other staffers that did attend that he was 
offended. Many times after the abuse began, I declined to go to lunch 
with the group, making an excuse not to go, then leaving before he came 
back. These lunches would sometimes not begin until 1:30 or 2:00 p.m. 
and he would not return to the office until 3:15 or even later. Before 
some of the lunches that I or we did not attend, he would say before he 
left that he was not intending to come back to the office and that I or 
we could leave whenever we were finished with what we needed to do. I 
took that opportunity to leave as soon as I could, before he might 
change his mind to return to the office. Other times, he would announce 
to me that he needed to come back to the office to finish ``signing 
some orders'' and/or ``pay a few bills'', and that he wanted me to be 
there when he returned. Those were always his words and I knew what 
that meant--he was coming back to the office with the intent to harm 
me. But I also knew that I had to be there when he returned for fear of 
insubordination. Many times, I implored his career law clerk, one of 
the people to whom I had told a portion of the story to, to be in 
chambers with me so that he could not ``misbehave'' when he returned. 
During the time after Cathy McBroom came to the court as his case 
manager, I became aware of his sexual abuse of her, as well. We 
discussed it on several occasions, and on occasions when I would leave 
in order to be out of the office when he returned, I would call Cathy 
and tell her that I was ``giving her a head's up'' because he had gone 
to lunch and would be coming back to the office. She knew what that 
meant, also, and although she was an employee of the District Clerk's 
office and could not just leave, she would leave her office and go to 
other places or offices in the building. Sometimes she would even take 
her own ``leave'' to leave the office.
    I know that it may be hard for some to understand or wonder how I 
could have endured this situation without doing anything about it. The 
reasons are many. My job was one that offered a significant amount of 
pay and benefits--even more than that of my husband. I could not afford 
nor did I want to leave the job, providing more than half of the income 
for my family. My husband is a man with a fairly short fuse--a man of 
few words--who believes that part of his job as husband and father is 
to protect his family. Had I told him of even the first episode, he 
literally would have gone to the Galveston courthouse and ``taken care 
of'' the situation. I was very afraid of how he would handle the 
situation. Any altercation, verbal or physical, with Sam Kent would 
have resulted in my being fired. My husband would face any variety of 
criminal actions, and Sam Kent would have blackballed me from the 
Galveston County legal community. After the incidents became more 
severe, my husband's reaction would have also been more severe. And 
whom, exactly, was I supposed to tell? Sam Kent made it clear, over and 
over, that he was the only person who made the decisions about his 
employees. And he had made that evident by his ``getting rid of'' and 
transferring several employees of the court whom he did not like or 
whom he felt needed to be replaced because of his own reasons.
    Sam Kent has spent his life manipulating people and abusing his 
relationships with people, abusing people not just sexually and not 
just women. Certainly, this has been my experience the time I have 
known him. He has also spent this time lying to everyone. He is a 
compulsive liar and he will never acknowledge what he has done to the 
people around him. He continues to try to manipulate the system and 
make excuses for his abhorrent behavior. In the criminal case against 
him, although some of his lies were uncovered, by his own admission, 
because of his narcissism and inability to admit fault and accept 
fault, he turned to even more lies by publishing ridiculous statements 
in the newspaper and blaming everyone and everything but himself. 
Although his plea bargain required his claiming responsibility for his 
actions, as soon as he was out of the courtroom he made statements to 
the press through his lawyer which were lies and made ludicrous excuses 
for his past lies.
    I did not fully realize how Judge Kent manipulated me until I was 
able to get out his ``web'', as he commonly referred to his position 
with the people involved in his career and life. I now realize how he 
maliciously manipulated and controlled everyone and everything around 
him. Through the entire time I was in this situation with Judge Kent, 
he attempted to buy me, as well as others, silence. He even went so far 
as to make me (as well as his former secretary) a beneficiary in his 
will--leaving us each a sum of money. He continued to manipulate and 
control what I and others would say after the action began by 
threatening to take his own life. Before my first grand jury appearance 
after he returned from administrative leave--20 minutes before my 
scheduled appearance--he came to my desk and told me, ``If anyone from 
Dr. Hirschfield's office calls [his psychiatrist], please put them 
through right away--you know they have me on suicide watch again, 
right?'' He even instructed his law clerk, Carey Worrell, in my 
presence, to research his life insurance policy to make sure that it 
did not contain ``suicide exclusion'' so that if he killed himself, his 
wife would still be paid the benefits. On another occasion before my 
last grand jury appearance, he told Ms. Worrell that if I ``rolled'' on 
him, it would be all he could take and he would kill himself. Of 
course, she notified me immediately, as she was worried that he might 
carry through with this plan, which was exactly what he wanted her to 
do. Ms. Worrell was also, sadly, in his web of manipulation and 
control.
    He abused those around him and misused the power that his position 
brought him. He said that he ``hated bullies.'' How sad is it that he, 
himself, is the biggest bully of them all. He continued his 
manipulative behavior in seeking a mental disability, when just two 
years ago he fought hard to make his accusers and the investigators 
know that he was fully capable of keeping his bench.
    Judge Kent liked to say that he had to treat the lawyers who 
appeared before him harshly because if he was nice to them that they 
would take advantage of him. He said that people ``misunderstand 
kindness as weakness.'' Now I know that this is what he truly believes. 
He saw my kindness to him as weakness and he took complete advantage of 
me. He abused his power continuously and believed that no rules truly 
applied to him. I witnessed this over and over and can give so many 
examples of this behavior. He mocked, made racist comments and abused 
criminal defendants who came before him, litigants, lawyers, his 
colleagues, and people in his everyday life.
    My life has truly been affected in ways that I can never describe. 
No one can fully understand what it was like for me to have this happen 
to me. My family and I are in counseling to deal with the pain he has 
caused. Our lives have been turned upside down. I have teenage children 
who had to hear the ugly details of sexual abuse perpetrated by someone 
they once loved and trusted. On a daily basis I struggle with the past 
and the pain that this situation has caused me. I am mentally exhausted 
and every day is a struggle to heal, move forward and literally 
function. My marriage has suffered significantly from the stress of 
this situation and I pray that it will survive. I am angry at the toll 
this has taken on me and my family, and the precious time I have been 
pushed, pulled and taken away from my children and my husband--time I 
can never regain. I worry constantly about what my future will be like 
both personally and professionally. Until this matter is completely 
concluded, the reality is that I am reminded of the situation daily and 
it is a source of constant angst and a complete drain of my emotional 
and physical energy. Ironically, until Sam Kent is off the bench, even 
the Administrative Office will not release me from his grips. I am 
still tied to him as a personal employee, tied to his budget, and any 
attempt to reassign me has not been successful. But yet he continues to 
earn his yearly salary as not only a convicted felon, but also a man 
who possesses all of the horrific characteristics of everything a 
federal judge is not ever supposed to be, but who still holds on to his 
position and seems to still have protection from the real world.
    Thank you very much for the opportunity to explain my situation and 
for your assistance in this matter.
                               __________

    Mr. Schiff. Professor Hellman.

   TESTIMONY OF ARTHUR D. HELLMAN, PROFESSOR, UNIVERSITY OF 
            PITTSBURGH SCHOOL OF LAW, PITTSBURGH, PA

    Mr. Hellman. Thank you, Mr. Chairman. The testimony that 
you have just heard makes all too clear the importance and, 
indeed, the urgency of this hearing today. The question before 
the Task Force is whether Judge Kent's conduct falls within the 
constitutional category of high crimes and misdemeanors that 
warrant impeachment.
    I have submitted a statement in which I analyze this 
question in some detail. Here, I will just briefly summarize my 
conclusions.
    In my view, based on the public record, Judge Kent's 
behavior does fall within the constitutional category, high 
crimes and misdemeanors. I reach this conclusion for two 
independent reasons. First, Judge Kent has admitted to making 
false statements in a judicial proceeding, specifically to a 
judicial--a special committee that was investigatng a complaint 
that he engaged in sexual harassment. This false testimony 
makes him unfit to hold judicial office.
    Second, there is evidence, now ample evidence, of sexual 
misconduct that constitutes an abuse of official power and that 
it provides further evidence of Judge Kent's unfitness to 
retain his judicial position.
    I will start with the false statements. Judge Kent has 
admitted that when he appeared before the Special Committee of 
the Fifth Circuit Judicial Council that was investigating a 
judicial misconduct complaint filed against him, he falsely 
testified regarding his unwanted sexual contact with Donna 
Wilkerson. False testimony by a Federal judge in a judicial 
misconduct proceeding falls easily within the realm of high 
crimes and misdemeanors that warrant impeachment.
    This is so, in part, because of the context. This Fifth 
Circuit Special Committee was part of the mechanism that 
Congress itself established in the Judicial Conduct and 
Disability Act of 1980. In that act, Congress made a considered 
decision to give the judiciary itself the primary 
responsibility for investigating and remedying misconduct by 
Federal judges. If that system is to operate effectively, chief 
judges and special committees must be able to rely on getting 
truthful answers from judges who are accused of misconduct. By 
testifying falsely before the special committee, Judge Kent 
impeded the committee's performance of this congressionally 
mandated task.
    And the mischief goes even deeper. A second purpose of the 
1980 Act was to allow the judiciary, as one sponsor said, to 
isolate the most serious instances of misconduct and to set 
before the House of Representatives a record of proceedings 
revealing misconduct which might constitute an impeachable 
offense. So when Judge Kent testified falsely before that 
special committee he interfered with the judiciary's ability to 
carry out that function, a function with constitutional 
underpinnings.
    As if that were not enough, there is another aggravating 
factor. The purpose of Judge Kent's falsehoods was to impede an 
investigation of acts of sexual misconduct that even then we 
knew may have constituted abuses of Judge Kent's position as a 
judge. As I develop more fully in my statement, abuse of 
official power virtually defines the impeachable offense. A 
public official who testifies falsely in order to cover up his 
abuse of power is doubly unworthy to fill his office. And when 
the official is a judge, the unfitness is inescapable.
    The record also points to a second ground for impeachment, 
the acts of sexual misconduct. On this point, Judge Kent's 
admissions established that he engaged in repeated non-sex--
non-consensual sexual contact with two court employees who were 
his subordinates. Now, if all you had was the admissions, I 
think that I would be reluctant to conclude that the admitted 
facts, without anything more, satisfy the constitutional 
standard.
    But, of course, there is more, a great deal more, the 
testimony you have heard today from Cathy McBroom and Donna 
Wilkerson. Based on that testimony and other evidence, you may 
well find that Judge Kent relied on his position of authority 
and control in the Galveston Division of the district court to 
coerce employees of that court to engage in sexual acts for his 
personal gratification and to coerce and intimidate them into 
remaining silent rather than to report his attacks to a higher 
authority.
    If the record shows that, there can be no question that it 
is impeachable behavior. It is, in the words of the 
authoritative commentator, Richard Wooddeson, it is official 
oppression that introduces arbitrary power. It is a high crime 
and misdemeanor.
    To sum up, there is at least one ground, and probably more, 
for impeaching Judge Kent. He has proved himself to be unworthy 
to fill the office he holds, and I urge the Task Force to take 
the next steps in the process that will enable the Senate to 
convict him and remove him from office. Thank you.
    Mr. Schiff. Thank you, Professor.
    [The prepared statement of Mr. Hellman follows:]

                Prepared Statement of Arthur D. Hellman

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Mr. Schiff. We'll now begin the questioning, and I'll 
recognize myself for 5 minutes.
    Ms. Wilkerson, I wanted to ask you--Ms. McBroom went 
through some of the chronology of how she filed the complaint 
around how the disciplinary proceeding was begun. Can you tell 
us a little bit about how you came to be involved in the legal 
proceedings, whether it was through the grand jury or 
otherwise, and what the course of the legal process was?
    Ms. Wilkerson. Yes, sir. I was questioned by the--initially 
I was questioned by the Fifth Circuit panel, and then I was 
called for grand jury testimony. I did not elaborate, I did not 
tell the whole story from the beginning.
    I became involved about a year and a half later. I did not 
want to come forward from the beginning, but I was sought out 
to tell the truth, and realized at a point that I had to tell 
the truth and come forward and do the right thing. And some 
people close to me also helped me make that decision that this 
had to be done. And so that's how I got involved.
    Mr. Schiff. Thank you.
    Professor, I want to ask you a couple of questions. First 
Mr. Baron related the part of the transcripts of the sentencing 
proceeding in which the prosecutor made reference to the same 
false statements that were the subject of the Fifth Circuit 
proceeding. The judge had also made to the FBI the same false 
denials. He also made reference to those same false denials 
being made later to the Justice Department. False statements to 
the FBI, false statements to the Justice Department in 
connection with the same conduct, in view--in your view, would 
those constitute impeachable offenses as well?
    Mr. Hellman. Yes, I think they would. And I rely here in 
part on the impeachment and conviction of Judge Harry 
Claiborne, who was convicted of tax fraud unrelated to his 
duties as a Federal judge. I think that if that is an 
impeachable offense, this kind of falsehood is an easy case 
after that.
    Mr. Schiff. In terms of the testimony we heard today, can 
you elaborate a little bit on whether it's necessary to show a 
nexus between the sexual assaults that were described and his 
position of authority or his responsibilities as a judge. Is 
there--and the necessity of there being a nexus--in other 
words, if the two women who testified today, let's say they 
didn't even work in the courthouse but were assaulted in the 
manner they described, would that be impeachment because it 
also constitutes criminal conduct, or would you need to show a 
nexus with his position of authority as a district judge, his 
position as employer? Is a nexus required for impeachment and 
has a sufficient nexus, in your view, been laid here?
    Mr. Hellman. Let me take the first part of that question. 
It is interesting that the question you pose was actually posed 
in a slightly different context more than 150 years ago by 
Justice Joseph Story, who was not only a Supreme Court Justice 
but one of our most authoritative constitutional commentators. 
And he posed that question: Suppose you had the misconduct--he 
talked about bribery rather than sexual misconduct--and it was 
totally outside the official capacity. He didn't quite answer 
it, but he put the question: Would we have any less confidence 
in that person's ability to hold his office simply because the 
misconduct occurred in a private capacity? The answer obviously 
to that question is no, you would not have confidence in the 
ability to hold that office.
    It seems to me, though, that you don't have to get to that 
here. Based on the testimony here, you have ample evidence of 
the nexus that this--that Judge Kent was able to engage in this 
behavior repeatedly and over a period of time because of the 
position of power he had as a Federal judge, and particularly 
as the only Article III judge in that Galveston courthouse. 
That's abuse of power, and abuse of power is quintessentially 
what makes for an impeachable offense.
    Mr. Schiff. Last question. The Constitution makes mention 
of judges serving during good behavior, which has been 
interpreted as meaning a life term. But I wonder whether those 
words ``good behavior'' also add context to what the framers 
meant by high crimes and misdemeanors. And the reason I ask is 
this: Unlike other Federal officials, Members of Congress, the 
President, who serve for a term of years and then are up before 
the voters, the judges are never up before the voters. There is 
only one method to be removed from judicial office, and that is 
by impeachment.
    Does that fact of there being no other remedy, no other 
mechanism for removal, and the discussion or the mention of 
good behavior mean that the framers had in mind either a 
different view of what constitute a high crime and misdemeanor 
in the case of judicial officer, or that good behavior should 
inform that in some way? Is there any discussion of whether, in 
the cases of someone appointed for life, that the same 
definition of high crimes and misdemeanors is nonetheless 
viewed in a different way?
    Mr. Hellman. Unfortunately for us today, the sequence in 
which the framers at the convention in Philadelphia considered 
these questions doesn't enable us to give a confident answer to 
that question. What is reasonably clear from the commentators 
over a period of time is that the concept of high crimes and 
misdemeanors does relate to the particular office because of 
this emphasis on unfitness or unworthiness to hold the office. 
And so I think in that sense you do look at judges a little bit 
differently, partly because of the particular responsibilities 
that they have, and partly because, as one of the commentators 
did say, you cannot remove them from office otherwise. So that 
does--that does put the context of the particular office, it 
does make it important in that sense.
    Mr. Schiff. Thank you, Professor. I now recognize the 
gentleman from Wisconsin, Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. I 
just want to make sure that the record is absolutely clear. And 
I would like to ask both you, Ms. Wilkerson, and you, Ms. 
McBroom, in your respective written testimonies you go into 
some detail on exactly what the nature of the misconduct of 
Judge Kent was against you. I'm not going to ask you to repeat 
this in public, but I would like each of you to say whether or 
not your detailed explanation is the truth and that is exactly 
what happened. You can just say yes or no.
    Ms. Wilkerson. Yes, sir, absolutely.
    Ms. McBroom. Yes, it's the truth.
    Mr. Sensenbrenner. Now, all of the instances that you 
described in your oral testimony, as well as in the written 
testimony which has been included in the record, took place 
while you were working, and during working hours; is that 
correct or not?
    Ms. Wilkerson. That's true.
    Ms. McBroom. That's correct.
    Mr. Sensenbrenner. So this was all harassment that occurred 
on the job while the clock was running for both of your jobs, 
correct?
    Ms. Wilkerson. Yes, none of these incidents occurred 
outside of the courthouse, ever.
    Ms. McBroom. Same with me.
    Mr. Sensenbrenner. I have no further questions, Mr. 
Chairman.
    Mr. Schiff. I thank the gentleman. Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I feel 
compelled to apologize to both Ms. Wilkerson and Ms. McBroom 
for the treatment that you have detailed to us today, and 
hopefully you will accept the knowledge that your Federal 
Government, the system of the judiciary, is one overall that 
you can be proud of.
    This is a difficult position for you to be in. And I 
believe it is very important for you to know of the many 
jurists and Members of Congress who stand away from the details 
that you have offered here today. So thank you for your 
coverage, for being here today, and accept this as an apology 
for, again, what you have represented to us today.
    Let me just try to find out from Ms. McBroom and from Ms. 
Wilkerson, did you overlap in tenure in Judge Kent's court? 
What were the years of service, again, Ms. Wilkerson? Can you 
give me the year to year--I think you said something like 2001 
to 2007; is that accurate?
    Ms. Wilkerson. Thank you very much for your kind words. 
Yes, our tenure did overlap. I came to the court in December of 
2001. And, if I may speak for Cathy, I believe she came in July 
or so.
    Ms. McBroom. It was September of 2002.
    Ms. Wilkerson. So I was there for almost a year before 
Cathy came.
    Ms. Jackson Lee. Thank you.
    And I think what you said, Ms. Wilkerson--and I will ask 
both of you. You indicated that when the judicial panel came 
forward, you were still at a point of intimidation and concern 
about your employment. So tell me just what you did when that 
panel came forward and asked you to speak to them?
    Ms. Wilkerson. Yes, ma'am, absolutely. At the time of the 
Fifth Circuit interviews, Judge Kent earlier--I believe my 
interview was in June, June sometime--Judge Kent had already 
been interviewed.
    Prior to that time, in between the time when Ms. McBroom 
filed her complaint and the time that I was interviewed, Judge 
Kent told me and told everyone that I knew of, including his 
lawyer, that he had been inappropriate with me on several 
occasions, kisses and hugs, a couple of times. The first few 
times, in his words, were that I was sweet about it, I was nice 
about it, but after the second or third time I made it very 
clear to him that I wanted no part of that. He told me from the 
beginning that that was his story, that was what he told his 
lawyer, that is what he told the Fifth Circuit. And then, 
ultimately, that is what he said that he told the FBI when the 
criminal investigation began.
    So that was the story that he told everyone. That is what 
he told me. That is what he told his law clerks. That is what 
he told even his colleagues, even the chief judge, I believe. 
But, in fact, that is not what he said at all in his interview 
with the Fifth Circuit and the FBI.
    Ms. Jackson Lee. So he said less than that.
    Ms. Wilkerson. He said less than the story he even told me.
    Ms. Jackson Lee. And when you went--did you go before the 
panel?
    Ms. Wilkerson. Yes, ma'am, I did.
    Ms. Jackson Lee. And how did you feel the necessity--what 
testimony did you offer?
    Ms. Wilkerson. My testimony was that that was the story, 
that I had been approached two or three times, a few times. I 
made it very clear that it was unwanted and it was more than a 
few times.
    Ms. Jackson Lee. And that was on record, and----
    Ms. Wilkerson. Yes, ma'am.
    Ms. Jackson Lee [continuing]. Then you still were in his 
employ as a personal secretary?
    Ms. Wilkerson. Yes, ma'am. I let them know that the--with 
that story.
    Ms. Jackson Lee. You went forward with that. Well, that is 
good. I just wanted to make sure that you were at that panel 
and provided that information.
    Ms. Wilkerson. Yes, ma'am, I did.
    Ms. Jackson Lee. Ms. McBroom, so it was 2002 that you 
started, and your complaint was filed when?
    Ms. McBroom. I believe it was filed toward the end of May 
2007.
    Ms. Jackson Lee. Right. And you went before that panel, as 
well?
    Ms. McBroom. Yes, I did.
    Ms. Jackson Lee. Okay. And likewise gave your almost 
complete testimony?
    Ms. McBroom. I gave them every piece of information I had.
    Ms. Jackson Lee. Okay. Let me thank you. And because my 
time--Professor, let me ask you----
    Mr. Schiff. Will the gentlewoman yield for just one moment? 
I want to make sure we have a clear record on this, Ms. 
Wilkerson.
    Ms. Jackson Lee. I would be happy to yield.
    Mr. Schiff. I thank you.
    In your comments to the judicial panel, there are many 
things that you did not tell them that you only disclosed 
later. Is that correct?
    Ms. Wilkerson. That is correct.
    Mr. Schiff. Okay. I just wanted to make sure we were clear 
about that.
    Ms. Jackson Lee. And I thank you for clarifying. I am 
understanding that Ms. Wilkerson framed her testimony at least 
with the items that the judge said, but, more importantly, that 
she was against these--or she refused these sexual assaults or 
advances--I don't want to characterize your testimony. But you 
made it clear on the record at that time.
    Ms. Wilkerson. Yes, ma'am, I made it clear there had been 
more than one incident of sexual misconduct and that it was 
against my wishes.
    Ms. Jackson Lee. Thank you. I think that is clear.
    Mr. Chairman, if you would indulge me, I was just in the 
middle of finishing very quickly with Professor Hellman.
    Professor, it does seem quite clear in the law about the 
idea of the impeachment standard. Where do you place the 
representations about alcohol abuse and mental health concerns?
    I would like you to--I am not sure what you have read or 
the materials that you have read, but I do know that there is a 
letter in the record from Judge Edith Jones, where they made 
the determination that, I guess, obviously you are upset and 
have some mental issues because you are in the midst of this 
crisis.
    Does there have any impact if this person represents or 
proves that they had a mental health issue throughout the 
period of these actions, as it relates to the impeachment 
proceeding?
    Mr. Hellman. Well, I suppose it has a view as an impact--
you know, you can feel perhaps a little bit more sympathetic 
toward Judge Kent as an individual. The question, though, for 
this Task Force in the first instance and then for the House 
is, is he worthy of the position he holds?
    And if he is not worthy of that position, as much of this 
evidence indicates very strongly, then that background, it 
seems to me, should not affect that determination. Because 
without removal from office, he will continue to sit as a 
Federal--not to sit as a Federal judge--to hold the title of 
Federal judge, to receive the salary of a Federal judge, and 
also to occupy a position that otherwise could be filled by a 
new judge appointed by the President.
    So that, it seems to me, is what is primarily relevant at 
the impeachment stage.
    Ms. Jackson Lee. Could you just--I will conclude on this 
question. Could you just restate the premise? Is that 
constitutional or case law on ``worthy to be''? Could you----
    Mr. Hellman. Well, there is not--I mean, one of the other 
points----
    Ms. Jackson Lee. I want you to help us with the right 
question, so that is why I am asking you.
    Mr. Hellman. Right. Yeah, no, I think the--we don't have 
case law on this for the simple reason that the Constitution 
vests the impeachment responsibility in the House and the trial 
responsibility in the Senate. Neither of those are judicially 
reviewable.
    For that reason, we rely heavily on the commentators. And 
one of the most authoritative commentators uses the standard of 
``worthiness for office,'' that a public official should be 
removed if he has shown himself to be unworthy of the office he 
holds. And so that is, I believe, the question here. And 
obviously there is very ample evidence on that, at this point.
    Ms. Jackson Lee. I thank the Chairman.
    I thank all the witnesses very much for your testimony.
    I yield back.
    Ms. McBroom. Mr. Chairman, may I add something to my 
statement?
    Mr. Schiff. Of course.
    Ms. McBroom. There were several incidents of sexual 
misconduct that were not alcohol-related. There were incidents 
where I was called up to his chambers in the morning and he 
tried similar things, tried to grab me, kiss me, fondle, when 
he had not been drinking. It was not always alcohol-related.
    As a matter of fact, he would go months at a time without 
drinking. I can't say that each incident was because of being 
intoxicated. It was not.
    Ms. Jackson Lee. That is an important clarification. I 
thank you for your testimony.
    Mr. Schiff. I thank the gentlewoman. Her time has expired.
    Mr. Goodlatte of Virginia?
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Ms. McBroom, can you describe generally the power that 
Judge Kent exercised in the Galveston courthouse? Is it 
basically true that it was a one-judge courthouse and he 
basically ran everything and supervised everybody?
    Ms. McBroom. Yes, it was a one-judge courthouse. I think 
all of the employees were afraid to get out of line. I know 
when I began my employment there, my own manager, the deputy in 
charge for Galveston, sat down and talked to me and told me 
that I needed to be very careful to stay under his radar, that 
anything could set him off.
    Mr. Goodlatte. So there was nobody in the courthouse that 
you or anybody else really would feel like you could go to 
complain----
    Ms. McBroom. Not anyone who was not afraid of him.
    Mr. Goodlatte. Right. Did Judge Kent do or say anything 
that communicated to you that he felt he could get away with 
his misconduct toward you because he was a Federal judge?
    Ms. McBroom. Well, at the time I told you about in the wait 
room, whenever I told him the security officers were right 
outside, he didn't say it was because he was a Federal judge, 
he just said, ``I don't care. I don't care who hears me.'' I 
just understood that it was because he was in that position of 
power.
    Mr. Goodlatte. What did it take, because of this 
environment, for you to be able to get the assistance or 
support from somebody else? How did you follow through on this 
to----
    Ms. McBroom. Do you mean when I decided to request the 
transfer?
    Mr. Goodlatte. Well, yes. When did you first seek some help 
in terms of dealing with the problems that you were having?
    Ms. McBroom. Oh, I sought help from the very beginning, 
from the very first incident by making my manager aware of what 
is going on. And she even agreed that if there were times when 
I felt threatened I could leave. She said, if you need to 
leave, you just go ahead and go, take off.
    But there were certain times when I actually had a lot of 
work to do and he might have been in the building and may have 
been looking for me, and I thought if I could temporarily just 
escape until he left the office then I could stay and continue 
to do my work. I know that sounds crazy, but I really did want 
to perform my responsibilities. Sometimes I would just go hide 
in an empty office until I knew that he had gone for the day.
    Mr. Goodlatte. Thank you.
    Ms. Wilkerson, how did the fact that Judge Kent was a 
Federal judge affect you in your initial response to his 
actions?
    Ms. Wilkerson. Well, as I said in my statement, I--what 
could I do? He had made it very clear that he was the sole 
person in our staff, the two law clerks and myself, he was the 
sole person responsible for every decision there. And I 
literally, when I came there, there was no training, there was 
no--in fact, several times throughout the 7 years that I was 
with him, I had asked to go to several training seminars and 
such, and he declined those. There was no training. I was like, 
who am I supposed to go to with this? Who am I supposed to tell 
this to? How am I supposed to handle this?
    Mr. Goodlatte. So you didn't even have the resource of a 
supervisor----
    Ms. Wilkerson. I did not have a manager. He was my manager. 
He was the manager.
    Mr. Goodlatte. And how did you ultimately bring this to the 
attention of others, that you had been subjected to this 
treatment?
    Ms. Wilkerson. Initially, I told the Fifth Circuit panel 
when they asked me in the investigation of Ms. McBroom's 
complaint. That was the first time.
    Well, let me back up. I had told two of our law clerks. One 
was a career law clerk, and one was a term law clerk that had 
left. And they've remained--she remains a co-worker and a dear 
friend, and he remains a dear friend. And I had told them back 
when. I had not told them the severity of it because it was too 
humiliating. I had told no one, no one, the details because it 
was too embarrassing and humiliating. Who could I tell these 
things to? I hadn't told my husband. I couldn't tell anyone. I 
personally felt I couldn't tell anyone.
    So I told them, but--and they were in agreement, that's 
awful. And one even went so far as to say, yeah, I think he is 
a predator. What are you to do? Everyone, even--and this guy, 
this friend of mine that was the former law clerk, of course he 
was intimidated and afraid of him also.
    Mr. Goodlatte. Mr. Chairman, I know my time has expired. I 
wonder if I might have leave to ask one question of Professor 
Hellman.
    Mr. Schiff. Of course, without objection.
    Mr. Goodlatte. It seems there are various views as to what 
sort of conduct would be sufficient to justify impeachment. Can 
you discuss for the Task Force how the concept of abuse of 
trust or abuse of position fits within the concept of high 
crimes and misdemeanors?
    Mr. Hellman. Yes. Abuse of trust, abuse of a position 
really is the heart of high crimes and misdemeanors.
    Mr. Goodlatte. You may want to hit your speaker button 
there.
    Mr. Hellman. I think it is--I'll bring it closer there.
    What is striking to me as I listen to the very courageous 
testimony of Ms. McBroom and Ms. Wilkerson, this context is 
new--sexual abuse, sexual assault, sexual harassment--but it 
fits so closely to the description in one of the classic works 
by the commentator Wooddeson, ``a magistrate who introduces 
arbitrary power.'' Those were the words he used. And that is 
what we are hearing about here today.
    Judge Kent introduced arbitrary power into the Galveston 
courthouse for his own personal gratification and satisfaction. 
It is a sad thing for me to hear, as somebody both to listen to 
the personal ordeals but also, as somebody who generally 
admires the Federal judiciary, that there was a judge who 
introduced arbitrary power, abused his power in this way. That 
is the essence of an impeachable offense, in my view.
    Mr. Goodlatte. Thank you. And I think it is a sad thing for 
all of us to hear.
    And I want to especially thank Ms. McBroom and Ms. 
Wilkerson for being willing to step forward and testify here 
today. It is no--I don't think any of us can in any way 
underestimate the stress that this must put you under. But we 
thank you very much. You are providing a great service to your 
country.
    Thank you, Mr. Chairman.
    Mr. Schiff. Thank you. The time of the gentleman has 
expired.
    Mr. Pierluisi of Puerto Rico?
    Mr. Pierluisi. Thank you, Mr. Chairman.
    I want to extend my heartfelt thanks to both of you, Ms. 
McBroom and Ms. Wilkerson, for appearing before us. Few 
individuals will ever experience the depth of pain and 
humiliation you have felt because of Judge Kent's conduct. 
You're both brave women for bringing his inexcusable behavior 
to light.
    As I see it at this point in this proceeding, Judge Kent's 
refusal to resign immediately from his office adds insult to 
injury. He already insulted you; he insulted all of us who 
believe in the American justice system. He insulted everybody. 
But now he injured everybody. Now he is insulting us.
    One thing is to cause the damage he caused to you, and now 
it is quite another and it is really flabbergasting that he 
wants to keep earning a Federal salary while even incarcerated. 
It makes no sense. He is forcing this Congress to take action. 
And that's what this is all about.
    Having said that, I imagine that no action that Congress 
takes can make you whole for the unspeakable harm Judge Kent 
caused you. Both of you mentioned the devastating impact that 
he has caused in your personal and professional lives. So on a 
human--on a personal basis, I just want to make sure, does this 
process help you in healing? Does it help you in moving on? I 
just want to hear from you on that.
    Ms. McBroom. I find it extremely helpful, and it is helping 
me to have closure, first of all, to know that I live in a 
country where it does matter. In America, sexual assault is a 
crime. Sexual assault in a workplace is even more of a crime, 
in my opinion.
    And it is--I just feel--I feel good about myself for coming 
forward, and I am so grateful that everyone is taking notice 
and that there is going to be action taken. It is very healing. 
Thank you very much.
    Mr. Pierluisi. You're welcome.
    Ms. Wilkerson. Thank you for your kind words, as well.
    Yes, this process, although very intimidating and out of my 
comfort zone for sure, I do feel that this process will help. I 
have kept thinking over this time, you know, the next step, the 
next step, the next step of trying to move forward and heal, 
and it seems like it couldn't get any crazier. This whole thing 
has been surreal.
    But all I can say is that, with each step forward, as 
painful as it is and as painful as the past has been, I am 
moving closer and closer to, you know, some sunshine in my days 
and to a healing process that, like Cathy says, people are 
taking notice and must take notice that this cannot and should 
not ever be acceptable or tolerated and that the system will 
maybe eventually, maybe not when we think it needs to be done, 
but will take care of situations such as this. So thank you 
very much.
    Mr. Pierluisi. You're welcome.
    I have no further questions.
    Mr. Schiff. The gentleman yields back.
    Mr. Lungren of California?
    Mr. Lungren. Thank you very much, Mr. Chairman.
    Professor Hellman, your testimony is very helpful in terms 
of establishing the parameters within which we work. And you 
made it very clear that it is the Congress, both the House in 
terms of impeachment and the Senate in terms of trial, who make 
the final determination. And while precedent is important and 
commentators are important, it is the collective judgment of 
the House and the Senate that prevails and is not appealable.
    You were asked a question about good behavior because of 
the reference to the Constitution. I think as we try and 
understand that, you go back to the Founding Fathers and you 
look at the commentary, which I think is pretty important, 
called the Federalist Papers, where I think it was Madison who 
said that ``the Constitution is established for a virtuous 
people. It would be insufficient for any other.'' And he was 
talking generally about the public. But I think it is also 
guidance in terms of those who are in official office.
    He also went on to say, ``If men were angels, we wouldn't 
need a government.'' But obviously we aren't and we need a 
government. But he also said, ``Once you have selected the 
people who are to govern, you have to watch those who are 
governing.'' And that is our requirement here. We're supposed 
to watch those who are governing. And, in this case, we are 
given the responsibility to make judgments with respect to the 
conduct of those who have lifetime appointments.
    And I don't think it is a close question as to whether or 
not what was related by these two witnesses here needs to have 
a nexus to employment. If one, while being a Federal judge, 
conducts himself in the way they have described, which in my 
estimation are prima facie cases of sexual assault or in some 
cases rape, there need not be a direct nexus to the job. That 
makes it even worse. So I think that is a separate and 
appropriate basis upon which we can impeach.
    Secondly, it seems to me, what they have described here is 
a case in which someone abused his power not only with respect 
to these two women, but if you look at the conduct in its 
entirety, it is obvious to me that he has used his influence to 
corrupt the process in which other employees look the other 
way. And that, to me, is one of the worst acts that someone 
with authority can have. They essentially corrupt the actions 
of others so that they either--they are aiding and abetting or, 
in the least, they are looking the other way. And when you have 
a Federal institution in a particular community which is the 
Federal court, to have the power to corrupt that entire 
workplace and the people who work within it is sufficient to 
find within the definition of high crimes and misdemeanors, in 
my judgment.
    To the ladies who testified here, what you have described 
is a reign of judicial terror. And if we do not act here, we 
not only do not do justice to you, but we send a message loud 
and clear to the rest of the country that, when one gets a 
lifetime appointment as a Federal judge, they are above the 
law.
    And if we allow him to sit in his incarcerated state and 
continue to draw his salary and then get his pension, what we 
have said is we are not serious about the fact that no person 
is above the law; that, along with the tremendous authority you 
get to be a Federal judge with lifetime tenure, the question of 
good behavior really doesn't mean anything.
    It either means something or it doesn't mean something. You 
don't have to be, with all due respect, Professor, a professor 
or a Member of Congress or a lawyer to look at two words, 
``good behavior,'' and kind of figure out what they mean. And 
what you two ladies have described here is the absence of good 
behavior.
    I happen to have a 91-year-old mother, I've got four 
sisters, I have a wife, I have two daughters. What you have 
described here is so unacceptable that Members of Congress have 
got to act. This cannot be allowed to go forward without an 
official response by this Congress.
    And to let someone, first, try and get off on some sort of 
dodge of his own physical disability or mental disability or, 
secondly, to resign a year from now so that he can retain his 
salary is totally unacceptable. And I want to thank the two of 
you for the courage that you have displayed, because God knows 
it is not easy for you to come forward and what it's done to 
your families.
    But we have to act based on the information you gave us. 
This is not a difficult case. It is a clear-cut case. This man 
should not be on the bench now; he shouldn't have been on the 
bench. And we have the obligation to act to make sure that not 
only he is on the bench but anybody else who would seek to be 
on the bench or serve on the bench would never give a thought 
toward acting the way he acted toward you and others.
    So you have done a great service to this country by coming 
forward. I know it's not easy, but there are a lot of people in 
this country who respect you for what you've done and thank you 
for what you've done. And now it is our obligation to do the 
job that must be done based on the information that you have 
given us.
    Thank you very much for being here.
    Ms. McBroom. Thank you.
    Ms. Wilkerson. Thank you very much.
    Mr. Schiff. The time of the gentleman has expired.
    The gentleman from Texas, Mr. Gonzalez?
    Mr. Gonzalez. Thank you very much, Mr. Chairman.
    I'm going to piggyback a little bit on what Mr. Lungren 
said. And what is the amazing thing, Ms. Wilkerson and Ms. 
McBroom, is both of you all have, in responding to my good 
friend from Puerto Rico's question about how you're finding 
this experience and you're saying, ``Well, it has been painful, 
but it is gratifying that the system is working.'' But I hope 
you realize the system is only working because you came 
forward. The system would not have worked. And so, when we talk 
about courage and bravery, that's what we are all discussing 
here.
    The second thought that I have is, look, sexual assault is 
a violent act. Had the judge struck you, it would have been a 
simple case. And we need to be reminded of that. Unfortunately, 
in today's society, things are taken in context and such in a 
way that we don't treat violent acts the same. But this was a 
violent act, first and foremost. But your contribution is 
making sure that people are held accountable.
    And the last thought is, tremendous adversity, that you 
come out of this stronger, that the family comes out stronger. 
And that would be all of our wish for you. And I think that is 
where you're headed. If you don't get there soon, I think you 
will get there.
    Professor Hellman, let me ask you quickly--because I do 
want to take the sensitivity, sensibilities of the witnesses, 
of the victims into account. I want them fully vested in the 
process to the extent necessary, because to continue different 
forums and different hearings does take its toll. It's just 
human nature.
    But in your paper, in your written statement, you have--let 
me start off. ``The short answer is the House must exercise 
independent judgment. It is not bound to determinations of 
other actors in other proceedings. The longer answer is 
fourfold,'' and then you go into examples. And you have, ``So I 
believe that the House should not rely on the criminal 
conviction as a basis for impeachment in and of itself. At the 
same time, however, the House can legitimately rely on the 
facts admitted by Judge Kent when he signed the plea agreement 
as well as the factual basis for the plea.''
    Preceding that paragraph, though, you allude to two 
instances, one where a judge pled not guilty and was acquitted, 
but nevertheless we use what was in the charging instrument as 
a basis to impeach him. The second example you use is where a 
judge--this is Judge Clayburn, in essence, where he was found 
guilty, but that wasn't the basis for impeachment; it was the 
underlying facts.
    But in this case--in those two cases, these judges pled not 
guilty. Isn't there some significance here in that we may be 
able to get to A to B if, in fact, we recommend to the full 
Committee that articles of impeachment be filed and they accept 
our recommendation? Can't we get from A to B in the simplest 
form possible? And that is relying on the plea--everything that 
was encompassed, the finding of guilty to a felony, a Federal 
felony, and the underlying facts that are encompassed in the 
statement, as you suggest, the factual basis for the plea?
    Mr. Hellman. Well, on the false statements, I do think that 
the facts he has admitted to, without more, state an 
impeachable offense on the false statements. It is on the 
sexual misconduct that I think the admitted facts, without 
more, don't quite get you from A to B. On the obstruction, 
false statements count, yes.
    And, of course, all you need is one article that the Senate 
convicts by two-thirds and he is removed from office. That's 
all you need.
    Mr. Gonzalez. The reason that I state my question is 
simply, if the full Committee moves forward with the 
impeachment, then you know the role of the House of 
Representatives. It is still up to the House of Representatives 
to return, basically, like, an indictment. We are a big grand 
jury; that's the way I always think of us, anyway. Then it goes 
for trial before the Senate.
    And to have to put witnesses to any extent or degree back 
under the microscope at a national level, at this point, is 
something, if at all possible--this is my own personal opinion; 
it is definitely not anything I have shared with any of the 
Members of the Task Force--that if we don't have to do it, we 
shouldn't have to do it. And we can still, if, in fact, 
impeachment is appropriate and the finding is appropriate, then 
we move forward.
    Can't we do that with what we have here, without fully 
engaging the witnesses and having them being part and parcel of 
that process?
    Mr. Hellman. I appreciate and understand exactly the point 
you make. And it is my view that, if all--if all you want is to 
assure that Judge Kent will be--I suppose I should not say 
``assure.'' It requires a two-thirds vote of the Senate, and 
each Senator will use his or her independent judgment. But it 
does seem to me that the admitted facts on the obstruction 
count that Judge Kent pleaded guilty to are sufficient to 
impeach him and convict him on that without the need to get 
into the details, the witnesses on the sexual misconduct.
    Now, you may have other reasons for wanting to impeach him, 
as some of these comments here suggest. But if the simple 
question is, can he be removed from office, should he be 
removed from office solely on the basis of these false 
statements which he has admitted, I do believe that is 
sufficient.
    Mr. Gonzalez. Thank you.
    Mr. Chairman, without objection, just 1 minute. I wanted to 
ask the witnesses----
    Mr. Schiff. Without objection.
    Mr. Gonzalez. Thank you very much.
    You're aware of the letter this Committee has received from 
Judge Kent. I think you all have alluded to it, and you've been 
able to read it.
    I'm going to ask you, since you're familiar with Judge 
Kent, his demeanor and the manner in which he treated 
individuals that came before his court, if a party came before 
him, did Judge Kent hold that party accountable for their acts?
    And let me go further than that. And if someone came before 
him, a party or a defendant, and said, ``Oh, if you rule 
against me or if you find me guilty, it will render me 
penniless and without the health insurance I desperately need 
to continue treating my diabetes and related complications as 
well as my continuing mental health problem; please take these 
realities into consideration to the extent that you may,'' 
would it have altered his judgment? What would he have done?
    Ms. McBroom. He would have dealt with them severely. He 
wouldn't have appreciated the fact that they were trying to 
play on his sympathies.
    Ms. Wilkerson. That's true.
    Mr. Gonzalez. Thank you very much.
    Ms. Wilkerson. He would have thrown some expletives in 
there. There would be no question whatsoever.
    Mr. Gonzalez. I appreciate it.
    I yield back, Mr. Chairman.
    Mr. Schiff. The time of the gentleman has expired.
    Mr. Gohmert of Texas?
    Mr. Gohmert. Thank you, Mr. Chairman.
    And I do thank the witnesses for being here.
    I did want to ask, we received a June 2, 2009, letter 
addressed to the President from Judge Kent. It says ``personal 
and confidential,'' but apparently he didn't just send it to 
the President; it was provided for all of us. I don't know what 
he means, ``personal and confidential,'' if he expected us to 
consider this.
    But I don't know, Professor, if you know, or perhaps the 
Chairman knows, what the effect would be if we did nothing and 
allowed him to resign effective a year from now on June 1, 
2010?
    Mr. Schiff. If the gentleman will yield?
    Mr. Gohmert. Sure.
    Mr. Schiff. He would remain a Federal judge for the course 
of the year. He would draw his salary while incarcerated for 
the year. And my understanding, although we would have to get 
further analysis, he could change his mind a year from now and 
decide to un-resign.
    Mr. Gohmert. But if he resigned, would that end his ability 
to get a pension?
    Mr. Schiff. I believe--and counsel can correct me if I'm 
wrong--that if he resigns from the bench or is impeached from 
the bench, he would not collect his pension. Under the 
circumstances of his years of service and his current age, my 
understanding is that he would not collect----
    Mr. Gohmert. He wouldn't get his pension.
    Mr. Schiff. If he resigned prior to a certain age, which he 
has not attained, or is impeached.
    Mr. Gohmert. So if he did resign effective a year from now, 
he does not get a pension, correct?
    Mr. Schiff. I think that is correct.
    Mr. Gohmert. Counsel was nodding. Is that correct?
    Okay. All right. Thank you.
    Well, as a former judge, I go into a hearing like this 
understanding, first of all, you've had a Federal judge plead 
to obstruction of justice, which indicates a great deal of 
injustice from the judge. But since we are supposed to take 
this up as a separate body and look at a separate punishment, 
basically, of removing him, impeaching him, actually charging 
him and pursuing elimination, which means no pension, no 
salary, yet we have to take a fresh look.
    So I'm constantly looking for issues of credibility. And 
you've come in here today; you haven't been examined toughly. 
I'm sure that that kind of stuff has happened, as you've been 
questioned by the FBI and people all through this time. But he 
pled guilty to obstruction of justice, and one might normally 
think, well, that is sufficient unless we were to find that 
there was an obstruction--I mean, there was some type of 
miscarriage of justice in the obstruction plea.
    But examining the plea transcript, I don't find anything 
that indicates a miscarriage of justice. And in looking for 
other issues, perhaps of credibility, of mental culpability, 
mens rea, or contriteness which a judge likes to consider--and 
is it true contriteness, or is this a manipulative type of 
contriteness? Are there issues that indicate true 
rehabilitation? You have both indicated that this is a 
manipulative judge. So what indications do we have that that 
may be the case even today or that he is contrite truly and he 
is no longer being manipulative if the evidence is there?
    Well, it certainly appears that when you have a judge who 
lied to the judicial counsel, as we heard, who voluntarily 
sought to make appearances in which he could lie, that that is 
clear indication of great manipulation. And, as we have seen in 
the transcript, you know, he again repeated the same lies. He 
said he had been honest with the FBI in December of 2007 and 
that--he went on to say that Person A--you know, acting with 
Person A is nonconsensual is absolute nonsense, which we later 
know he has admitted was actually not absolute nonsense but 
actually was a fact. So, again, misrepresenting. Person B, he 
said the defendant falsely--the transcript said falsely stated 
that he attempted to kiss her on two separate occasions, when, 
in fact, it was over a much longer period.
    So, again, he is still trying to manipulate through this 
process up to the actual sentencing hearing through this 
transcript. But other indications, too--you know, we know this 
is an articulate guy. We can take judicial notice of his 
opinions and the things that he has said in court. He's got a 
good vocabulary. He is articulate enough. But then we know he 
also--because I want to know, is he really contrite? Is he 
really feeling--has he been rehabilitated after what he has 
been through?
    We know he forced the Fifth Circuit to act upon his request 
to retire with a disability, knowing what he had done, already 
admitting to obstruction of justice. Boy, that is real 
manipulation. And then you come in here and we have this letter 
of resignation, June 2nd, addressed to the President, to retire 
a year from now, which he could withdraw at any time. If we 
took this and said, ``Oh, well, great, he is going to retire, 
he is going to resign, and so we don't have to deal with it 
anymore''--but he could withdraw that at any time within the 
next year? That is real manipulation, not making it final, not 
making it clear that he is resigned to the fact that he needs 
to resign.
    And then you compare that to the letter that's dated June 1 
to this Committee, which the Chair and counsel have already 
indicated comes not under oath, so should not carry the 
credibility of someone who came in and took the oath. But in 
that letter, he ends up saying that--as my friend from Texas 
said, that removal from office ``will render me penniless and 
without the health insurance I desperately need to continue 
treatment.'' Well, that is contradictory to his resignation. He 
completely contradicts himself. On one, he says he's got to 
have this. And then the next day sends a letter saying, ``I'll 
resign next year,'' which gives us a clear indication he has no 
intention to resign next year. This is further manipulation, 
and it is rather insulting.
    So, last, we come to the issue--and I appreciate so much 
the insights my friend from Texas had into this, Mr. Gonzalez. 
But this not only has gone on beyond contriteness, but it is 
further manipulation such that I don't think we should stop 
even if we get a letter of resignation. I think this man needs 
to be impeached. Because when you have a Federal judge who 
would do all he can to get paid for doing the job of a Federal 
judge while he is in prison for committing a crime while he is 
a Federal judge, this is somebody who needs to be impeached. 
And a message needs to go out to others that you're not going 
to play games with this panel, you're not going to play games 
with this Congress. You try to manipulate us like you have 
others, then we are going forward. You want to resign, you do 
it before you try to manipulate this body, or otherwise we are 
taking it to the wall.
    Thank you, Mr. Chairman. I yield back.
    Mr. Schiff. Thank you.
    The gentleman yields back.
    I just want to conclude by thanking you, Ms. McBroom and 
Ms. Wilkerson, again, for your courage in coming forward. I was 
a law clerk for a Federal judge in Los Angeles, a judge of 
great integrity. And it grieves me enormously to hear what you 
suffered in your courtroom and the courthouse. It is 
unimaginable.
    And I want to echo the comments of my colleagues, that it 
is a tremendous public service that you came forward. Had you 
not come forward, Judge Kent would be sitting on the bench 
right now and, very conceivably, mistreating or assaulting 
other people in the courthouse. You've put an end to that. So 
you've done a great public service in coming forward. We are 
very grateful. We know how hard it must be, and I wanted to 
thank you again.
    We will be scheduling a fall meeting of the Task Force very 
promptly to discuss whether to recommend articles of 
impeachment to the full Committee for its consideration.
    And I want to thank my colleague, the Ranking Member of the 
Task Force, Bob Goodlatte, for his work.
    I want to thank you, Professor Hellman.
    And, with that----
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Schiff. Yes, the gentlewoman from Texas?
    Ms. Jackson Lee. Is there a time frame for both our 
discussions and then the procedure moving to the Senate? 
Obviously, it has to go to the full Committee. Do we have a 
range of time? I'm making an inquiry.
    Mr. Schiff. Yes, it is my intention to move very quickly to 
reconvene this Task Force to discuss what recommendation we 
want to make to the full Committee. It will then be up to the 
full Committee to schedule a full Committee meeting to act upon 
the recommendations of the Task Force.
    If the Task Force recommends articles of impeachment and 
the full Committee then votes to approve those articles, it 
would then be up to the floor schedule to schedule floor 
action. But it would be my intention, not in the least of which 
because I don't think we want this to drag on and further 
prevent our witnesses from achieving some form of closure but 
also for the reasons that my colleagues have explained, that we 
move promptly and expeditiously.
    Ms. Jackson Lee. A further inquiry is on the full Committee 
proceedings. Are all parties invited, or do they act upon our 
Task Force recommendations? Are parties invited again to the 
full Committee procedurally?
    Mr. Schiff. No. My understanding would be that the Task 
Force will make a recommendation to the full Committee. We will 
deliberate as in a legislative markup, but we will not have 
witnesses at the full Committee hearing.
    Ms. Jackson Lee. If I just may have a moment of personal 
privilege, if you would, let me just--these are constituents 
that live in and around the Houston area, and, obviously, the 
story saddens me.
    But thank you again for being such good people and willing 
to expose yourselves. And thank you for also understanding that 
there are good people around you who care about you. And you 
have allowed us to clear the air for other workers, not only in 
our area, in the Houston-Galveston area, but around the Nation. 
So thank you so very much for your contributions.
    I yield back, Mr. Chairman.
    Mr. Schiff. I thank the gentlewoman.
    This hearing of the Task Force on Judicial Impeachment is 
adjourned.
    [Whereupon, at 3:07 p.m., the Task Force was adjourned.]

                                 <all>

</pre></body></html>
